<html>
<title> - STAMPING OUT ANTHRAX IN USPS FACILITIES: TECHNOLOGIES AND PROTOCOLS FOR BIOAGENT DETECTION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





STAMPING OUT ANTHRAX IN USPS FACILITIES: TECHNOLOGIES AND PROTOCOLS FOR 
                           BIOAGENT DETECTION

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2003

                               __________

                           Serial No. 108-57

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

85-545              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
WILLIAM J. JANKLOW, South Dakota     CHRIS BELL, Texas
                                     JOHN F. TIERNEY, Massachusetts

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                        Robert A. Briggs, Clerk
           Denise Wilson, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 19, 2003.....................................     1
Statement of:
    Day, Thomas G., vice president of engineering, U.S. Postal 
      Service; William Burrus, president, American Postal Workers 
      Union; Kenneth Martinez, engineer, Centers for Disease 
      Control, accompanied by Bradley Perkins; James L. Hadler, 
      State epidemiologist, State of Connecticut Department of 
      Public Health; and R. Davis Layne, Deputy Assistant 
      Secretary, Occupational Safety and Health Administration...    85
    Rhodes, Dr. Keith, Chief Technologist, Center for Technology 
      and Engineering, Applied Research and Methods, accompanied 
      by Bernard Ungar, Director Physical Infrastructure Issues; 
      Dr. Jack Melling, former head UK Center Applied 
      Microbiology and Research; Dr. Robert G. Hamilton, 
      director, John Hopkins, accompanied by Barry Skolnick; and 
      Colonel Erik A. Henchal, Commander, U.S. Army Medical 
      Research Institute of Infectious Diseases, accompanied by 
      Dr. George Ludwig..........................................    12
Letters, statements, etc., submitted for the record by:
    Burrus, William, president, American Postal Workers Union, 
      prepared statement of......................................   112
    Day, Thomas G., vice president of engineering, U.S. Postal 
      Service, prepared statement of.............................    89
    DeLauro, Hon. Rosa, a Representative in Congress from the 
      State of Connecticut, prepared statement of................     7
    Hadler, James L., State epidemiologist, State of Connecticut 
      Department of Public Health, prepared statement of.........   138
    Hamilton, Dr. Robert G., director, John Hopkins, prepared 
      statement of...............................................    47
    Henchal, Colonel Erik A., Commander, U.S. Army Medical 
      Research Institute of Infectious Diseases, prepared 
      statement of...............................................    58
    Layne, R. Davis, Deputy Assistant Secretary, Occupational 
      Safety and Health Administration, prepared statement of....   157
    Martinez, Kenneth, engineer, Centers for Disease Control, 
      prepared statement of......................................   120
    Rhodes, Dr. Keith, Chief Technologist, Center for Technology 
      and Engineering, Applied Research and Methods, prepared 
      statement of...............................................    16
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3

 
STAMPING OUT ANTHRAX IN USPS FACILITIES: TECHNOLOGIES AND PROTOCOLS FOR 
                           BIOAGENT DETECTION

                              ----------                              


                          MONDAY, MAY 19, 2003

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Janklow, Kucinich, Linda Sanchez 
of California, Ruppersberger, and DeLauro.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, PhD, senior policy advisor; 
Kristine McElroy, professional staff member; Robert A. Briggs, 
clerk; Joseph McGowen, detailee; David Rapallo, minority 
counsel; Denise Wilson, minority professional staff member; and 
Jean Gosa, minority assistant clerk.
    Mr. Shays. Good afternoon. A quorum being present the 
Subcommittee on National Security, Emerging Threats and 
International Relations hearing entitled, ``Stamping Out 
Anthrax in Postal Facilities, the Technologies and Protocols 
for Bioagent Detection,'' is called to order.
    Whether the mail-borne anthrax attacks of 2001 were of 
domestic or foreign origin remains a mystery. The 
investigation, to date, has not discovered who forever 
transformed once innocent letters and packages into ubiquitous 
vectors of disease. So the lessons learned from these tragic 
events remain our best defense against further attempts to 
contaminate the mail stream and other public spaces with deadly 
spores.
    There was much to learn. Once it became clear the envelopes 
sent to Senators Leahy and Daschle had left a deadly trail of 
extraordinarily virulent statically volatile anthrax, 
established assumptions about the ancient pathogen had to be 
discarded. The accepted lethal dose of 8,000 to 10,000 air 
borne germs, derived mainly from animal data, had to be revised 
drastically downward. Perhaps to just a single spore. Sampling 
and testing protocols proved insensitive to finely engineered 
material easily reaerosolized.
    It is those sampling and testing protocols we examine 
today. The search for anthrax at the Wallingford, CT, postal 
facility offers an instructive case study, a cautionary tale on 
the need to maintain a more aggressive approach to novel health 
hazards in the workplace.
    Last month the General Accounting Office released a report 
critical of Postal Service communications to employees during 
the anthrax crisis. Confusing communications stemmed, in part, 
from what has been generously characterized as an evolving 
system of environmental sampling. In truth, it only evolved 
from a complacent, almost symbolic program to disprove the 
presence of anthrax to an appropriately aggressive effort to 
find spores because Mrs. Ottili Lundgren died.
    Obviously, several negative factors at Wallingford provided 
no reliable evidence the facility was free of potentially 
deadly anthrax. Jurisdictional jealousies, false economies and 
some scientific hubris artificially limited the quantity and 
quality of sampling and testing. Facing a wholly new situation, 
understandable errors were made, but too often, and for too 
long, those mistakes were not made on the side of excess 
caution but in the service of unwarranted conclusions about the 
safety of contaminated facilities.
    When a finding of negative does not mean zero and just a 
few spores can be as deadly as a million, sampling must be 
widespread and aggressive. Testing must yield sufficiently 
detailed information to allow health officials and the public 
to make sound decisions about the prophylactic treatments and 
site decontamination.
    Despite the hard-learned lessons of Brentwood, the Hart 
Building and Wallingford, standardized sampling and testing 
protocols are not yet complete. It seems likely a new anthrax 
outbreak by mail would trigger another confusing cascade of 
interagency committees and inconsistent testing regimens. Until 
uniform, scientifically validated protocols are in place, we 
all stand as sentinels like Ottili Lundgren, human detectors 
waiting for our immune systems to sound the alarm.
    Our witnesses today will describe current anthrax sampling 
and laboratory testing technologies and efforts to apply those 
technologies more consistently and forcefully in the future. We 
appreciate their time and expertise and we look forward to 
their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T9545.001
    
    [GRAPHIC] [TIFF OMITTED] T9545.002
    
    Mr. Shays. Governor do you have any statement you'd like to 
make.
    Mr. Janklow. No, sir.
    Mr. Shays. Now, to get to our panel we have Dr. Keith 
Rhodes, Chief Technologist, General Accounting Office, 
accompanied by Mr. Bernie Ungar and Dr. Jack Melling as well.
    Second, testimony from Dr. Robert G. Hamilton, Director, 
John Hopkins, and we have accompanying him Mr. Barry Skolnick.
    Third, testimony from Colonel Erik A. Henchal, Commander, 
U.S. Army Medical Research Institute of Infectious Diseases, 
accompanied by Dr. George Ludwig.
    Gentlemen, if you would stand we'll swear you in. Anyone 
else who might be giving testimony, if you'd stand and raise 
your right hands please.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all the witnesses have 
responded in the affirmative.
    I ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record, and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I ask unanimous consent that all witnesses be permitted to 
include their written statements, and without objection, so 
ordered.
    I also, ask unanimous consent that my colleague from 
Connecticut, Rosa DeLauro, be allowed to participate as a 
member of the subcommittee. Without objection, so ordered.
    Do you have a statement you'd like to make? If you do, you 
can.
    Ms. DeLauro. If I can, I would thanks. Thank you very have 
much, Mr. Chairman. I appreciate your accommodation of my being 
here to listen to the testimony today.
    As a fellow member of the Connecticut delegation, I know we 
share the same concerns with regard to safeguarding our Postal 
System so that the American people and our postal workers are 
never again really put at risk by biological attacks like the 
anthrax attacks that claimed the lives of five people, 
including Connecticut resident Ottili Lundgren.
    Today's hearing is an important opportunity to learn what 
happened in the fall of 2001 during the anthrax attacks on our 
Postal System, and in particular at the Southern Connecticut 
Processing and Distribution System in Wallingford, CT, which is 
in my district, and which I have visited several times since 
the attacks.
    Today, we will examine our response to that crisis. In 
particular, what went right, what went wrong, and what we can 
do better if there is ever a next time. In retrospect, I think 
we were very lucky that no Connecticut postal workers died 
during the attacks that contaminated mail that passed through 
the Wallingford facility because there were several 
communication breakdowns, and that concerns me greatly.
    As others have noted, the Postal Service conducted two 
tests on the Wallingford facility following the tragic death of 
Ms. Lundgren to investigate whether that facility had any 
traces of anthrax. The results of those tests using dry and wet 
swabs and taken on November 11 and 21, 2001, respectively, were 
negative. Tests conducted by the Centers for Disease Control on 
November 25 were also negative.
    But as postal workers continued to work at the Wallingford 
facility, a more comprehensive test was conducted by the CDC 3 
days after the initial CDC tests using wet wipes and the HEPA 
vacuums, and those tests came back positive. Further tests, 
taken by the CDC and the Postal Service, confirmed those 
positive results. Three million anthrax spores were found on 
mail sorting machines.
    So my concern is why did it take so long to detect the 
contamination, and why was not more comprehensive testing done 
following Ms. Lundgren's death, especially given that postal 
workers continued to work at the facility. One would think that 
using all the resources available would be an urgent priority.
    My other concern relates to the Postal Service's seeming 
reticence to make public those later test results that showed 
that its workers were, in fact, at risk. While I understand 
that the Postal Service said it was following its guidelines 
that said results must first be validated before being made 
public, why then did the service show no such reticence in 
releasing the negative, and as it turned out, false results of 
the earlier tests?
    There's an inconsistency here that I find troubling when we 
are dealing with matters of public health, I think the public 
is better served when we err on the side of caution, when we 
are more, not less, forthcoming with releasing such 
information. We simply cannot afford to take chances with 
people's lives, particularly given the truly heroic efforts of 
those postal workers at Wallingford, who soldiered on in the 
face of an unseen and deadly threat. Eleven hundred employees 
at the Wallingford Postal Facility deserved to have a full 
understanding of the facts, so that they could make an informed 
decision before going to work every day.
    I commend my colleague from Connecticut, Chairman Shays, 
for convening this hearing today. I hope that we can correct 
the problems that flowed or hindered our response and continue 
to foster those things that went right. All of us want the same 
thing for the American public to be safe and to be protected.
    As a member of the Labor Health and Human Services 
Appropriations Subcommittee, which oversees funding for CDC, 
I'm also looking forward to hearing from the CDC and from 
Connecticut's Department of Public Health about how they worked 
together to stem this outbreak in Connecticut. Griffin 
Hospital, in nearby Derby, very quickly identified the case of 
anthrax and isolated the outbreak. Again, we are fortunate that 
we had only one death.
    With that, I thank the chairman and the committee for 
allowing me to participate today and hope that we can make a 
real difference in the fight against biological terrorist 
attacks. Thank you again Mr. Chairman.
    Mr. Shays. I thank the gentlewoman. We're grateful to have 
you.
    [The prepared statement of Hon. Rosa DeLauro follows:]

    [GRAPHIC] [TIFF OMITTED] T9545.003
    
    [GRAPHIC] [TIFF OMITTED] T9545.004
    
    [GRAPHIC] [TIFF OMITTED] T9545.005
    
    [GRAPHIC] [TIFF OMITTED] T9545.006
    
    [GRAPHIC] [TIFF OMITTED] T9545.007
    
    Mr. Shays. Mr. Ruppersberger, welcome.
    Mr. Ruppersberger. Thank you, Mr. Chairman. While the focus 
on today's hearing is on the Wallingford, CT incident and the 
June 2 rollout of detection test sites across the country, I 
have particular interest in this topic.
    I represent the Baltimore area. The Baltimore Distribution 
Center has been the first and only pilot test site to date. 
Baltimore has been running the Bioagent Detection System [BDS], 
since June 2002. Using state-of-the-art technology, there have 
been no positives since the pilot program began and their 
success has allowed for the rollout to remain on schedule. My 
understanding of the issue goes beyond the Baltimore facility. 
The pilot system has been built by Northrup Grumman and Davis 
Industries, which are both in my district, and I have visited 
those manufacturing areas and been briefed on that, and they 
are building systems now for 14 test sites throughout the 
country.
    The Aberdeen Proving Grounds, Army Engineers and John 
Hopkins have all played a vital role in this technology. We 
have learned so much in the last year and a half about 
bioterrorism and how to apply technological advances to a new 
line front defense workers like the Postal Service, and I look 
forward to the testimony today and learning more about where we 
need to go.
    Thank you.
    Mr. Shays. Thank you very much.
    I'm just looking. We don't have enough chairs for folks. 
I'm interested in maybe having the second panelists, if you 
don't mind, use the first three chairs on either side, and that 
will free up some chairs. So if some of the second panelists 
could just sit up front here, we'd appreciate that. Thank you 
very much, and that frees up a few chairs if someone wants to 
grab them.
    OK.
    We're going to hear first from Dr. Rhodes and then Dr. 
Hamilton and then Colonel Henchal. The way we do it is, we do 
the 5-minute rule, and we rollover the clock. I assume you 
don't take the second full 5 minutes, if you could stop a 
minute or two into your second round, that would be helpful. So 
you might have to summarize, and obviously, so we are all set.
    Dr. Rhodes.

STATEMENTS OF DR. KEITH RHODES, CHIEF TECHNOLOGIST, CENTER FOR 
   TECHNOLOGY AND ENGINEERING, APPLIED RESEARCH AND METHODS, 
ACCOMPANIED BY BERNARD UNGAR, DIRECTOR PHYSICAL INFRASTRUCTURE 
    ISSUES; DR. JACK MELLING, FORMER HEAD UK CENTER APPLIED 
 MICROBIOLOGY AND RESEARCH; DR. ROBERT G. HAMILTON, DIRECTOR, 
 JOHN HOPKINS, ACCOMPANIED BY BARRY SKOLNICK; AND COLONEL ERIK 
A. HENCHAL, COMMANDER, U.S. ARMY MEDICAL RESEARCH INSTITUTE OF 
     INFECTIOUS DISEASES, ACCOMPANIED BY DR. GEORGE LUDWIG

    Dr. Rhodes. Thank you. Mr. Chairman, members of the 
subcommittee, I'm Keith Rhodes, GAO Chief Technologist and the 
Director of the Center for Technology and Engineering----
    Mr. Shays. I'm going to ask you to talk into the silver 
mic. See if we can hear you better.
    Dr. Rhodes. I'm Keith Rhodes, GAO, Chief Technologist and 
Director of GAO Center for Technology and Engineering. I'm 
accompanied by Bernie Ungar, Director for Postal Issues in the 
Physical Infrastructure Team and Dr. Jack Melling, former head 
of the UK Center for Applied Microbiology and Research.
    We are pleased to be here today to present our findings on 
anthrax testing conducted by the Postal Service and the Centers 
for Disease Control and Prevention at the Southern Connecticut 
Processing and Distribution Center in Wallingford, CT.
    As you know in September and October 2001, four letters 
containing bacillus anthracis spores were mailed to news media 
personnel and congressional officials. As a result, the letters 
contaminated numerous postal facilities and exposed several 
postal workers to anthrax. Some of the workers became sick, 
with two dying of inhalation anthrax. Three other people also 
died from inhalation anthrax, including an elderly woman in 
Connecticut, a postal customer. After contamination was found 
in the Wallingford facility, a union official raised concerns 
regarding how postal managers communicated test results to 
workers. We have issued a report in this regard, the 
recommendations of which are included in this testimony.
    Even though our analysis of the Wallingford incident is 
only one part of the larger study we are doing for you, it 
gives unique insight into the lessons that need to be learned 
from the response of the Federal Government, State health 
departments and the Postal Service to the anthrax attacks.
    The Wallingford facility was unique in that it did not 
directly handle the anthrax letters. Rather, it was cross-
contaminated by them, with the largest number of spores being 
found in a sample collected from a single machine. There was, 
however, evidence that the spores had become air borne since 
small numbers of spores were found in elevated areas, more than 
20 feet above the contaminated machine.
    In addition, while other facilities had workers and 
customers who suffered from either cutaneous or inhalation 
anthrax, the death of a postal customer served by the 
Wallingford facility underlines the insidious nature of anthrax 
and the difficulty in determining a lethal dose, since the 
elderly Connecticut woman died from anthrax when no evidence of 
anthrax could be found in either her home or places she 
frequented.
    To compound this, a single spore was found on a letter 
received by another postal customer in the community, and yet, 
no other illnesses or deaths in the community were reported.
    Further, the Wallingford facility was outside the 
predictive analysis that the Postal Service performed to 
determine the impact on the rest of the postal distribution 
network of the contaminated letters processed through 
facilities in Washington, DC, and Trenton, NJ.
    The unpredictability of both the lethality of anthrax and 
the route that contaminated mail might take, makes it extremely 
difficult to establish the health risks associated with a 
release of a biological agent such as anthrax inside a facility 
that serves the public.
    This difficulty underscores the need for a standardized and 
aggressive response, as well as forward planning to protect 
facility workers and the public should an anthrax attack occur 
again.
    As you know, determining whether or not a facility is 
contaminated with anthrax is critical. This is dependent upon 
one, the methods used for sampling, two, the locations from 
which samples were collected, and three, how many samples were 
collected.
    The Postal Service's testing of the Wallingford facility 
originally used the dry swab method for sample collection and 
found no anthrax. After the death of the elderly Connecticut 
woman on November 21, 2001, the CDC and the Agency for Toxic 
Substance and Disease Registry used targeted sampling, focusing 
on the mail sorting machines and different sampling methods, 
wet wipes and HEPA vacuums. They also collected more than three 
times the number of samples previously collected by the Postal 
Service and found contamination in some of the samples.
    This inability to initially find anthrax contamination 
shows that either qualitative, that is positive or negative, or 
quantitative, test results from a qualified laboratory cannot 
be used to establish a health risk. Positive results only show 
whether contamination is present in the samples collected. 
However, negative results do not necessarily mean that a 
facility is free from contamination. Quantitative test results 
only show the extent of contamination in the specific sample 
found to be positive, not how much anthrax is present in the 
facility.
    For example, 3 million anthrax spores were found on one 
machine in Wallingford. However, with regard to the health risk 
to an individual, although this number was significantly higher 
than what was considered historically to be a lethal dose for 
an individual, 8,000 to 10,000 spores, CDC did not know how to 
extrapolate the amount in a sample to a person's risk for 
inhalation anthrax. The Environmental Protection Agency 
recently reported that in order to perform credible risk 
assessment, it is essential to identify the minimum number of 
spores needed to cause inhalation and cutaneous anthrax.
    Nevertheless, there is now a consensus among the experts 
that a few spores could be harmful to a susceptible individual 
as may have been the case in the death of the Connecticut 
woman.
    Public health response is most effective and efficient when 
it is proactive. When it focuses on prevention, rather on 
consequence management. Thus, the Wallingford incident 
illustrates the challenges facing the Federal Government, the 
State health departments, the network of diagnostic 
laboratories and those companies that serve the general public, 
including the Postal Service. The challenge can be summed up in 
one question. Is it safe?
    This is what everyone asked during the fall of 2001 and 
this is what everyone is trying to answer to this day. 
Unfortunately, the best answer anyone can give is, it is 
probably safe. Once a building has been contaminated, one can 
never say there is no risk; but there can be a low risk but all 
those who are trying to protect the public health must realize 
that they are defining the risk level for others. In this case 
the postal workers as well as the general public.
    The impact of additional anthrax cases could result in 
illness or loss of life, as well as loss of confidence in the 
Nation's postal system. Further, even though the health risk is 
probably low, it is uncertain. We are, therefore, recommending 
that the Postmaster General, in consultation with CDC, EPA, 
OSHA, as well as any other relevant agencies and postal unions, 
for those facilities that were deemed free of anthrax spores 
based solely on a single negative sampling result, that they: 
One, reassess the risk level for postal workers at those 
facilities and the general public served by those facilities; 
two, reconsider the advisability of retesting those facilities, 
employing the most effective sampling methods and procedures; 
and three, communicate to the postal workers and the general 
public the results of the assessment of health risk, the 
advisability of retesting, the rationale for these decisions 
and other relevant information that may be helpful regarding 
the health of the postal workers and the general public.
    Mr. Chairman, this concludes our statement. My colleagues 
and I will be happy to answer any questions you or members of 
the subcommittee have.
    [Note.--The GAO report entitled, ``U.S. Postal Service, 
Better Guidance is Needed to Improve Communication Should 
Anthrax Contamination Occur in the Future,'' may be found in 
subcommittee files.]
    [The prepared statement of Dr. Rhodes follows:]

    [GRAPHIC] [TIFF OMITTED] T9545.008
    
    [GRAPHIC] [TIFF OMITTED] T9545.009
    
    [GRAPHIC] [TIFF OMITTED] T9545.010
    
    [GRAPHIC] [TIFF OMITTED] T9545.011
    
    [GRAPHIC] [TIFF OMITTED] T9545.012
    
    [GRAPHIC] [TIFF OMITTED] T9545.013
    
    [GRAPHIC] [TIFF OMITTED] T9545.014
    
    [GRAPHIC] [TIFF OMITTED] T9545.015
    
    [GRAPHIC] [TIFF OMITTED] T9545.016
    
    [GRAPHIC] [TIFF OMITTED] T9545.017
    
    [GRAPHIC] [TIFF OMITTED] T9545.018
    
    [GRAPHIC] [TIFF OMITTED] T9545.019
    
    [GRAPHIC] [TIFF OMITTED] T9545.020
    
    [GRAPHIC] [TIFF OMITTED] T9545.021
    
    [GRAPHIC] [TIFF OMITTED] T9545.022
    
    [GRAPHIC] [TIFF OMITTED] T9545.023
    
    [GRAPHIC] [TIFF OMITTED] T9545.024
    
    [GRAPHIC] [TIFF OMITTED] T9545.025
    
    [GRAPHIC] [TIFF OMITTED] T9545.026
    
    [GRAPHIC] [TIFF OMITTED] T9545.027
    
    [GRAPHIC] [TIFF OMITTED] T9545.028
    
    [GRAPHIC] [TIFF OMITTED] T9545.029
    
    [GRAPHIC] [TIFF OMITTED] T9545.030
    
    [GRAPHIC] [TIFF OMITTED] T9545.031
    
    [GRAPHIC] [TIFF OMITTED] T9545.032
    
    [GRAPHIC] [TIFF OMITTED] T9545.033
    
    [GRAPHIC] [TIFF OMITTED] T9545.034
    
    [GRAPHIC] [TIFF OMITTED] T9545.035
    
    Mr. Shays. Thank you Dr. Rhodes.
    Dr. Hamilton, you're going to want to lower the mic, and it 
is the silver one that you speak into.
    Dr. Hamilton. Thank you good afternoon. Thank you, Mr. 
Chairman, for the opportunity and members of the subcommittee.
    My name is Robert Hamilton, and I am professor of medicine 
and pathology at John Hopkins University School of Medicine. I 
am also the director of the Dermatology, Allergy and Clinical 
Immunology [DACI], Reference Laboratory which is at John 
Hopkins University.
    I'm speaking to you today as an academic scientist, an 
individual who was not directly involved in the anthrax events. 
However, my group became pulled into this issue when, in fact, 
this simple vacuum collecting device was, in fact, used in the 
Brentwood and the Wallingford facilities to collect surface 
dust and, we developed this and applied this collector about 10 
years ago to the sampling of indoor environments for homes of 
children with asthma and allergies for assessing indoor 
allergens. So the question about the applicability of this to 
indoor anthrax assessment was of great interest to us.
    I'd like to start by introducing the concept of the 
environmental surface testing a system in which a sample is 
collected from a surface, and then it's transported into the 
laboratory where it is extracted from the specimen, it's 
analyzed by one of a variety of ways, and then its results are 
reported.
    Now, in each one of these four components, I think we can 
do better at improving the methodologies that we used, and I'll 
try to give you some illustrations as I go through this 
presentation.
    Let us focus on the first issue of how sensitive were the 
methods that were available. It's our opinion and I've 
presented my conceptions, and--I collaborated with Barry 
Skolnick, who has actually developed a ``show and tell'' of 
these methodologies if, in fact, you wish to see them later.
    It's our intention that, in fact, we really cannot answer, 
in fact, how sensitive these methods are because we have really 
never had positive controls, samples that tell us that, in 
fact, the methodology is either valid and have helped us in 
assessing the reproduceability of these methods. So I don't 
think at this point, based on the data that are in the 
literature, that we can actually answer the question of how 
sensitive these methods really are.
    We do have some experience from NASA using some of their 
surface wipe testing procedures of spacecraft that give us a 
feeling for what technology pushed to its limit can do, but as 
to the methods that are actually used, I'm not sure we can 
actually answer that question.
    As to the second component of your questions, which were 
how appropriate were the protocols and what can we learn from 
Wallingford, I have three areas, that brings me into three 
areas of recommendations that I'd like to leave with the 
committee and those can be summarized in essentially four 
words.
    The first is leadership. The second is support, and the 
third is peer review.
    Now, in terms of leadership, we need a single Federal 
agency to take responsibility for overseeing the 
characterization, the improvement and the validation of the 
diagnostic, the surface collection testing methods that we have 
available; and I'm focusing on surface because I think, in the 
government, they have focused very well on optimizing air borne 
sampling, but it wasn't the air borne samples in these 
facilities that gave us the real information. It was the 
surface specimens that allowed us to make these decisions. As 
an illustration, we probably wouldn't have used dry swabs in 
the postal facility based on the protocol used by the U.S. 
Postal Service if, in fact, we really had a leadership 
organization that was saying, well, the CDC recommends wet 
swabs; why, and well, let us get together and develop a 
consensus, and they would have found out that wet swabs were 
improved, and they probably would not have used dry swabs. So 
that was an issue of leadership in my opinion.
    A second issue could be focused on what units were used to 
report the results. Results were reported in ``colony forming 
units per gram.'' Now, in allergy testing, that makes all the 
sense because that's the way that we report results, but in 
terms of assessing lowering a burden within the environment, on 
a particular instrument or piece of equipment, ``colony forming 
units'' per area or total burden is more relevant. So the way 
that the results were reported would have probably been 
different if we had a leadership--an agency that oversaw the 
consensus building of a protocol.
    The second point, I'd like to focus on is support. In 
preparing a couple of research grants and submitting them to a 
variety of agencies, we have been unable to identify no obvious 
extramural support mechanism for individuals who are outside 
government, such as academics and industrial scientists, who 
have ideas that can help improve the methodologies to actually 
find funding for our ideas.
    And so I'd like to suggest that we need improved focus on 
support, both financial and resources, to focus on the issue of 
developing a consensus guideline that ultimately allows us to 
have validated methods.
    The third area is peer review. Coming from an academic 
environment, I feel that an open discussion of issue is 
extremely important to getting good ideas out. I realize 
there's a national security issue here with some proprietary 
concepts that can't be discussed in public, but by opening up 
peer review, we probably would have learned more about the 
existing methodologies that NASA's already created but have 
shown us the way to, possibly, improving the wipe-rinse aid 
that, in fact, the CDC ultimately used to identify spores in 
the Wallingford facility.
    So again, to emphasize, I believe we need a single agency 
that will help us in developing and bringing all of the 
governmental scientists, and we have great technical capability 
in our government together, and along with support from the 
academic community, of which we're one of many, individuals who 
have ideas of how to improve methods and industrial concerns 
that, in fact, have technologies that could be applied, I feel 
that and with the support, the financial and the resource 
support, and with open peer review, where we can discuss and 
develop these ideas and develop a consensus, that we can 
actually develop methods with very little additional effort 
which, in fact, will allow us to adequately deal with any 
potential threat in the future with regard to anthrax.
    With that, I'd like to close my remarks, and thank you for 
the opportunity, and I'm open to questions if you wish.
    Thank you.
    [The prepared statement of Dr. Hamilton follows:]

    [GRAPHIC] [TIFF OMITTED] T9545.036
    
    [GRAPHIC] [TIFF OMITTED] T9545.037
    
    [GRAPHIC] [TIFF OMITTED] T9545.038
    
    [GRAPHIC] [TIFF OMITTED] T9545.039
    
    [GRAPHIC] [TIFF OMITTED] T9545.040
    
    [GRAPHIC] [TIFF OMITTED] T9545.041
    
    [GRAPHIC] [TIFF OMITTED] T9545.042
    
    [GRAPHIC] [TIFF OMITTED] T9545.043
    
    [GRAPHIC] [TIFF OMITTED] T9545.044
    
    Mr. Shays. Thank you Dr. Hamilton. Colonel.
    Colonel Henchal. Mr. Chairman and distinguished committee 
members, I'm honored to appear before your committee to answer 
your questions regarding technologies and protocols for 
detecting anthrax and other biological agents. I'm Colonel Erik 
Henchal, the Commander of the U.S. Army Medical Research 
Institute of Infectious Diseases [USAMRIID].
    USAMRIID has had a 34-year history of basic and applied 
research in the area of diagnosis, treatment and prevention of 
hazardous infectious diseases. Our efforts, especially over the 
past 8 years, have been instrumental in the development of 
reagents and the evaluation of medical diagnostic systems and 
procedures that are playing an active role in our Nation's 
defense and national security.
    During the 2001 anthrax attacks, I led a team that 
processed over 30,000 environmental samples and performed 
approximately 260,000 assays supporting the Senate, the Capitol 
Police, the FBI, the CDC and other executive branch agencies. 
Dr. George Ludwig, who is USAMRIID's Chief, Diagnostics Systems 
Division and coordinates basic and applied research of medical 
diagnostics technologies, joins me today.
    The tragic events following the terrorist use of the U.S. 
Postal Service during the fall of 2001 to deliver anthrax 
spores demonstrates that there's still much to be learned about 
the effects of this agent under conditions different from those 
encountered during natural outbreaks. In particular, the health 
effects of aerosolized anthrax spores on various populations 
are very poorly understood.
    The death of a possibly immunocompromised 94-year-old woman 
in Oxford, CT, from inhalation anthrax after no known exposure 
suggests that some populations may be much more susceptible 
than others. The fact that relatively few cases of anthrax were 
observed among the large number of individuals potentially 
exposed to high concentrations of anthrax spores further 
complicates interpretation of the epidemiological data. 
Estimates for infectious or lethal doses of anthrax spores are 
based upon studies with laboratory animals, not humans and the 
values must be interpreted very carefully. The most common 
figures quoted for lethal aerosol doses of anthrax are between 
8,000 and 50,000 spores. This range reflects the dose estimated 
to be capable of killing one-half of the animals exposed.
    There are substantial scientific uncertainty regarding the 
dose-response relationship, and there's no scientific consensus 
that has been reached on the lethal infectious dose in humans. 
As a result, we're concerned that any level of contamination of 
anthrax could potentially lead to harm to some exposed 
individuals. While any amount of contamination should be a 
concern, the context of that contamination must be carefully 
considered, especially when attempting to determine a forensic 
link to a purposeful release and when attempting to formulate 
health policy. The detection of spores in dust collected from 
an urban U.S. Postal Service facility would be a greater 
concern than finding spores in soil collected in a rural area. 
These differences illustrate the need to make use of all 
available expertise when making policy decisions from basic 
test data. At USAMRIID we err on the side of caution initially, 
but use all available resources to formulate a long-term 
response that is appropriate for the situation. This doctrine 
is routinely taught at USAMRIID to managers and technicians of 
field-deployed laboratory units.
    The events that unfolded at the Wallingford, CT postal 
facility represent, to large part, a lack of knowledge and 
experience with the biological data. In reality, local 
government officials and the Postal Service could not have 
anticipated the requirement for this knowledge or experience 
prior to the events of September and October 2001.
    Moreover, experience with anthrax spores is available at 
relatively few locations in the United States. The lack of 
experience and knowledge exacerbated the problems with the 
post-attack response. First, methods for collecting samples 
consistent with the physical and biological characteristics of 
the material were poorly understood. Misunderstandings led to 
delays in reporting and the implementation of work force 
protective measures. Second only a small number of laboratories 
were capable of reliably detecting and identifying bacillus 
anthracis. This resulted in the reliance upon procedures that 
were not adequately validated, producing disparate results with 
further delays in the implementation of protective measures. We 
are pleased that through an ongoing collaboration among the 
Department of Defense, the Environmental Protection Agency and 
the Centers for Disease Control and Prevention, validated 
methods and protocols will be developed later this year.
    The most important lessons learned from these tragic events 
can be summarized in four basic points. First, in the absence 
of reasonable surety, always err on the side of caution.
    Second, develop procedures for validation of test data that 
are based upon sound and experienced scientific judgment. 
However, the clinical data will be the hardest to obtain. We 
may never be able to definitively define the risk, especially 
in low-dose exposures as occurred in the Wallingford postal 
facility.
    Third, we must make efficient and maximum use of all 
available expertise to help develop concepts of operation that 
will provide the greatest margin of safety for the public.
    Finally, we must make every effort to ensure that this 
expertise, this national resource, both in government and in 
academia, is maintained and expanded by increasing 
opportunities for dedicated scientists and to develop 
technologies that have been responsible for preparing for this 
and future bioterrorism events.
    I thank the subcommittee for its time and would be happy to 
entertain your questions.
    [The prepared statement of Colonel Henchal follows:]

    [GRAPHIC] [TIFF OMITTED] T9545.045
    
    [GRAPHIC] [TIFF OMITTED] T9545.046
    
    [GRAPHIC] [TIFF OMITTED] T9545.047
    
    [GRAPHIC] [TIFF OMITTED] T9545.048
    
    Mr. Shays. Thank you very much.
    We're going to start with Mr. Ruppersberger. We'll do 5 
minutes, then we'll go to Mr. Janklow, then Ms. DeLauro and 
myself.
    Mr. Ruppersberger. First, we have to learn from our past 
experiences. I think, Dr. Hamilton, was it you talking about 
leadership, and I think what agency would be responsible. We 
are, as we relate after what happened on September 11 and the 
anthrax issue we're learning as we go. The good news for the 
United States of America, I believe, that our agencies are 
doing well, working together as a team, but we can continue to 
do better, and when we have a situation as we had in 
Connecticut, we need to learn from that.
    I said when I started, in my opening statement, that I 
visited the facility that was manufacturing the really, I guess 
it's called a biodetection system, and it's being manufactured 
in conjunction with, I think, Northrup Grumman and Davis 
industries and really looked at it and saw it in use. Right 
now, that has been used in the Baltimore facility, and I 
understand the term is ``zero test positive'' is that correct 
scientific indication, and I would like to know your opinion 
about the biodetection system that has been in use in 
Baltimore, and so far it has worked well. Do you agree with 
that? Do you know anything about that equipment? Anyone?
    Dr. Hamilton. May I ask a question?
    Mr. Ruppersberger. Sure.
    Dr. Hamilton. Has it been validated using positive 
controls? I assume it has.
    Mr. Ruppersberger. Well, I'm asking you the question, and 
if you don't know, then maybe there's someone else on the panel 
who might.
    Dr. Hamilton. I have a concern.
    Mr. Ruppersberger. That's it. It has been in 14 different 
areas. You have to look at the, I think, weather conditions. 
You have to look at a lot of different issues, but so far, from 
what we have been told, that it has been working based on the 
test system. I don't know, and I understand it's going to be 
going out into 14 other areas if it's not there already. What 
we want to do here is just get it right, and we want to make 
sure that we can protect our employees and our customers in the 
Postal Service because of what has happened here, and if, in 
fact, this technology is working, I want to know if anyone here 
has knowledge of it. That's my really my question.
    Colonel Henchal. Sir, I have small knowledge about it. Some 
of the core technology, actually, was derived from technology 
and gene amplification devices that were developed by the 
Department of Defense and then transferred to a commercial 
manufacturer. The devices are currently being evaluated mostly 
with surrogates for anthrax. It's not possible to test these 
devices with large amounts of anthrax spores, as you can 
imagine, and so they do test these devices with surrogates for 
anthrax. These are related organisms that don't cause disease.
    The focus, if I'm not mistaken, of the technology that's 
being tested at Baltimore is primarily through high-volume 
collection of air which is then tested using a single gene 
amplification technology. There may be other components of the 
system that I'm not aware.
    One of the problems, I think, in that is that I think to 
really define the risk and to be able to detect an attack, 
there may have to be some other technologies involved such as 
surface sampling or protocols for surface sampling as well. I'm 
not sure that relying completely upon high-volume air sampling 
is the only solution.
    Mr. Ruppersberger. Let me ask you this. In that air 
sampling, that's the technology that is in use there, what 
about any other bioagents, other than anthrax?
    Colonel Henchal. That's an excellent point, in that when we 
start to look at technologies and protocols for detecting a 
terrorist attack, we have to validate against all of the most 
likely threats that we will face. The protocols that we 
validate for anthrax may not be appropriate for some other 
threats such as ricin toxin, and I don't believe that we've 
been able to do those studies yet.
    Mr. Ruppersberger. I would suggest anyone involved in this 
very important issue, and I'm sure that Homeland Security is 
being involved also, find out as much as they can about the 
equivalent that's being used in the Baltimore operation now, 
because my staff has contacted the U.S. Post Office, and from 
what we get from them that they feel very good about what's 
happened so far with that equipment. All we're trying to do is 
get whatever we need to deal with the issue, so that we can 
protect lives.
    One other question, resources. Any indication of where we 
are with respect to resources to continue to research, to look 
at equipment, personnel? Do you have an opinion on resources or 
are they lacking now? And where you think we need to go? 
Anybody on the panel whatsoever.
    Dr. Rhodes. One of the resource issues is amongst the 
diagnostic laboratories. Initially, after the fall anthrax 
attack, one of the limitations on the ability of the Postal 
Service to get its samples reviewed was that the network of 
qualified diagnostic laboratories was limited. Obviously, if 
there's funding there, if either Homeland Security or whomever 
in the Federal Government is willing to put the funding into 
that to meet the risk associated with a bioterror event, then 
we won't have this bottleneck that occurred in September and 
October 2001. Because that was part of some of the discussion 
about what sampling methods were employed; what laboratory can 
handle what sampling method within a reasonable time period.
    Mr. Ruppersberger. Time's up, Mr. Chairman.
    Mr. Shays. Thank you, Governor.
    Mr. Janklow. Thank you, Mr. Chairman.
    Colonel, most of my lifetime I've read news reports about 
research that our country, the old Soviet Union, Russia, have 
done on substances like anthrax. Did the Postal Service ever 
contact the Department of the Army, specifically yours, or any 
other organization with respect to the testing that they were 
doing or what kind of contractor they ought to hire or what 
kind of protocols they ought to have in their testing analysis? 
Obviously, they did not contact John Hopkins. Did they contact 
you folks?
    Colonel Henchal. Through the fall when the attacks were 
occurring in 2001, our contact was mostly with law enforcement 
agencies. As I remember, shortly after the first of January, 
after January, we did begin to be contacted by Postal 
officials, and we had a few teleconferences, as well as visits, 
to discuss the problem but mostly the context of the 
discussions involved trying to identify the technologies for 
future systems.
    Mr. Janklow. But by that time, they had two or three tests 
of their own testing done.
    Colonel Henchal. I don't recall anytime where we had a 
chance to review that time, review the data. I don't recall a 
time, to review the protocols they were using.
    Mr. Janklow. Colonel, we talk about spores 8,000 or 10,000 
or whatever we think it may take. A spoonful would be how many 
spores? What were we talking about in terms of size?
    Colonel Henchal. Practically uncountable. We're really 
talking about, you know, a magnitude of spores in a tablespoon 
that would be beyond our ability----
    Mr. Janklow. Even if we had a spoonful?
    Colonel Henchal [continuing]. To quantitatively give you a 
description of that.
    Mr. Janklow. So when we say 8,000 to 10,000, it's a big 
number, but it's a very small mass?
    Colonel Henchal. That is exactly correct.
    Mr. Janklow. In my State, I come from South Dakota, we have 
anthrax in livestock virtually every other year. As a matter of 
fact, we had a veterinarian that caught it last year, the 
cutaneous kind. It's not that unusual. It's rare, but it's not 
that unusual. Has the Army done research going back decades? 
Stories I have read most of my life, are they true?
    Colonel Henchal. I'm not sure what stories you've read, but 
the Army----
    Mr. Janklow. I have read that the Soviet Union and the 
Americans and some of the other Armed Forces of the world have, 
the Iraqis have done extensive amounts of research with respect 
to anthrax. And so what I'm getting at is, if we've done this 
research, do we have a reservoir of technology which we can go 
on the shelf and get? Information, now that it is out in the 
civilian population?
    Colonel Henchal. Well, we agree. And at USAMRIID, we've had 
pretty much a 34-year history of evaluating scenes, primarily 
from the medicals aspects, not environmental aspects, but I 
agree that even during the attacks of 2001, there was 
insufficient exchange of information that would have possibly 
helped interpretation of the results.
    Mr. Janklow. Is the information, as far as you know, that 
the Army has now, is it open and available to the civilian, the 
general law enforcement and medical and epidemiological 
civilian authorities?
    Colonel Henchal. Generally, the protocols that we have and 
the testing methods that we have, actually, are available and 
more could be provided through opportunities for interagency 
exchange.
    Mr. Janklow. What could--do you mean more could be provided 
than what are they asking you for and where it is?
    Colonel Henchal. There is--for the most part, we're an open 
scientific literature laboratory, which means that we do have a 
lot of knowledge that we've already published in the scientific 
literature. But I think that there is because we have a body of 
scientists at USAMRIID that have a lot of institutional 
knowledge, and I think through more peer review and scientific 
exchanges, if those could be encouraged, more information may 
be available.
    Mr. Janklow. Dr. Rhodes, in the research you did in 
preparing for your testimony in the report that you wrote, did 
the Postal Service indicate what it would do? If it had it to 
do over again, what it could would do differently?
    Dr. Rhodes. Yes.
    Mr. Janklow. Could you tell us what that is?
    Dr. Rhodes. What they would do differently is that they 
would use, I mean, we were told that they would use.
    Mr. Janklow. They would not use the dry swab. What else?
    Dr. Rhodes. They would use the aggressive method.
    Mr. Janklow. Who told them to use the dry swab? Who was the 
genius that came up with that one?
    Dr. Rhodes. Well, Mr. Janklow, they contracted for it.
    Mr. Janklow. Obviously, the contractor was not much 
brighter than the contractee.
    Dr. Rhodes. The dry swab was a method that was being used 
at the time, and it was the method that they applied. The 
Centers for Disease Control did issue comment saying that they 
should add water to it; they should wet it with one to two 
drops of water on the swab. But as the Colonel has pointed out, 
and as Dr. Hamilton has pointed out, this was an evolving 
process. It was necessary for people to learn as they went. 
What we learned was people were trying to interpret and apply 
existing methods and procedures that were not applicable, 
directly, to the environmental capture of bacillus anthracis. 
In some cases they were employing mold spore methods.
    Mr. Janklow. Thank you.
    Mr. Shays. Thank you. Ms. DeLauro.
    Ms. DeLauro. Thank you very much.
    If I could just followup on my colleague's comment. With 
the acceptable technology, dry swabs, wet swabs, wet wipes, 
HEPA vacuum, amongst those, is one better than the other? Is 
one more efficient than the other? Are two more efficient than 
the other? And if that's the case, if there's a differential, 
and we know that there's one that's better than the other, why 
aren't we using the best, and help me if that's----
    Dr. Rhodes. Well, I think that why aren't we using the 
best, I think now, the best would be applied.
    Ms. DeLauro. What would that be?
    Dr. Rhodes. It would be a combination, as was seen when the 
Centers for Disease Control went into the Wallingford facility 
and used wet wipes, as well as the HEPA vacuums, in 
combination, they found 3 million spores on machine No. 10.
    Ms. DeLauro. My point is, did we know that wet is better 
than dry before we started the process in Wallingford? So that 
body of knowledge or that information that--and I don't know 
who the contractor was either, but the fact is, if within the 
literature of this effort, there is one process better than 
another? And then, why don't we just jettison what we don't 
believe works and move to what we want? What we know works?
    Colonel Henchal. Ma'am, if I may. The wet swab method, 
actually, was derived from some methods that had evolved at 
USAMRIID, especially when we were working with animals. But 
with regard to your specific question----
    Ms. DeLauro. Is that the best one?
    Colonel Henchal. Well, with regard to your specific 
question, you actually needed an integrated approach. There are 
many different variables when you start trying to sample an 
environment. You may need HEPA filter vacuums for chairs or for 
rugs, but you know, wet swabs are more appropriate for some 
kinds of surfaces. And so you have to have, really, an 
integration of different methods as you approach that problem.
    Ms. DeLauro. I want to get to another question, but my 
point is, usually in these situations, and it was a brand new 
situation understandably, but the fact is, you don't have much 
time, you have to move quickly, it would seem to me if we do 
have information, if we do have processes and procedures, and 
we know which are the ones the best to go to, then let us move 
in that direction.
    Let me followup. My time is going to be up in a few seconds 
here, and I don't want to beg the indulgence of the Chairman.
    Colonel Henchal, what constitutes being exposed to anthrax, 
and can you walk through a room where spores have been found 
and expose a person enough to become sick? Given that we had 3 
million spores identified here, how many spores need to be 
present to affect a person? In your judgment, how much of a 
risk did the Postal Service take by not informing workers, or 
even visitors to the facility, of the results of the anthrax 
tests? And in the report they talk about trace amounts, which 
is what was described to the workers. With the 3 million, with 
what we know about the situation, was this a ``trace amount?''
    Colonel Henchal. First, let me say that the question of 
exposure is a difficult one, as you can already imagine. In 
order to be exposed, not only does the organism have to be 
there, it has to be there in a form in which you can take it 
into your body or it can be absorbed on to the skin. In order 
to be an inhalation hazard, it has to actually be on a particle 
of a particular size. It has to be a very small, what we call 5 
microns in size or less.
    In order to be exposed and then get an infection through 
the skin, you have to have a way for the spore to land on your 
skin and be there and then enter a break in the skin.
    And so whether or not any particular individual is at risk, 
depends upon a number of different variables. It may also 
depend upon the health status of that individual. Whether or 
not exposure to one anthrax spore is sufficient depends upon 
whether or not that spore has an opportunity to enter your body 
and then initiate that infection. Unfortunately, we don't why 
some people get sick and others do not.
    Ms. DeLauro. But the 3 million--I visited that facility on 
December 11, 2001, and where we had made the discovery there. 
The workers, as I understand it, at that juncture were told 
there were trace amounts, and I was not particularly concerned 
about myself, but I was there. Was I or anyone else who was at 
that large gathering, including staff people, etc., exposed to 
Anthrax?
    Colonel Henchal. You were probably exposed, but the risk of 
the infection may have been small, and the reason for that is 
the spores if they attach to paper waste, they have a particle 
size that is too large for you to take into your lung and for 
the infection to initiate. It is possible, but under those 
conditions, the risk is small. If the anthrax spores are fixed 
onto the surface of the machine, on the metal of the machine, 
you probably have a low risk of infection, unless there is some 
way to transfer those spores to your skin.
    Ms. DeLauro. Those workers, day in and day out, were 
exposed, and they have much more to do with the machinery than 
I did, and I will just say, would it have been prudent, as we 
did when we found difficulties, to shut down this plant, 
explain to the workers what their exposure or risk was, do what 
we needed to do to clean it up, and have them go back 
afterward?
    Colonel Henchal. I would agree that the workers were 
exposed, but I can't make a decision or a recommendation about 
whether or not the plant should have been closed.
    Mr. Shays. Great questions.
    I am going to take my 5 minutes, and next round we will do 
10 minutes, so we have a little more in-depth questioning.
    For some reason I have been dreading this hearing. My 
previous committee had so many hearings on anthrax before 
September 11, and we had all these preconceptions. We had a 
preconception that once you had the symptoms--once they 
appeared, you were dead. You know, a few days later, you were 
going to die, and we had a preconception that it took a lot of 
the spores to kill you. Since then, we know we can treat it 
with antibiotics very aggressively and potentially with a 
vaccine even after that and that it probably doesn't take a lot 
of the spores to kill you. But we don't know which spores or, 
you know, which kind, under what conditions and about your 
health and so on.
    I want to ask you, Dr. Rhodes, first, what are the most 
significant concerns that led you to make the recommendations 
included in your testimony?
    Dr. Rhodes. I guess the primary concern that I have is the 
uncertainty of infection. As you stated in your statement, in 
effect, zero is not zero, and one is equal to a million if you 
are the wrong person, at the wrong place, at the wrong time.
    If you look at the fall of 2001 and you compare it to the 
accident in Sverdlovsk, in the former Soviet Union, where the 
bioproduction, the anthrax production center there had a 
somewhat equivalent release of anthrax into the community, you 
can see that the official numbers from the former Soviet Union 
are that between 60 and 70 people died. The unofficial 
estimates from outside sources are between 300 and 400 people 
died. We aren't talking about anthrax out of that facility that 
is less potent than what was sent through the mail.
    If you look at the 94-year-old Connecticut woman with a 
suppressed immune system succumbing to an unmeasurable amount 
of anthrax, that is the concern that we have, that when we are 
talking about the general population, both in terms of the 
postal workers, as well as the general public, you are not 
talking about animal extrapolation, you are not talking about 
healthy males between the ages of 18 and 26. You are not 
talking about people who have biodefense gear with them. That's 
the main concern, the uncertainty.
    Mr. Shays. It is also true, isn't it, that you had no 
conviction that other postal facilities are free from anthrax, 
in other words, they could have been decontaminated?
    Dr. Rhodes. That's why we make the recommendation structure 
as we say it, for those facilities deemed free of anthrax based 
on a single sample done with dry swab; that's the least 
effective method.
    Mr. Shays. Therefore, we can make no assumption that they 
aren't contaminated, and we have to assume in one sense that 
they may be. Therefore, tests and the testing has to be 
extraordinarily aggressive, correct?
    Dr. Rhodes. That's our recommendation, to reassess the risk 
and whether the facility should be retested.
    Mr. Shays. Dr. Hamilton, do you think other facilities 
could be contaminated?
    Dr. Hamilton. I would support what was just said in the 
sense that the methods that were reportedly used are not 
definitive and not really validated, and therefore, we really 
can't know with a confidence level that, in fact, those 
facilities are clean or negative.
    In other words, it could be false negative results, which 
we now believe did occur, and so this recommendation, I think, 
is a very, very excellent one. How one goes about doing it----
    Mr. Shays. Tell me this. Given your expertise, how did you 
react after September 11? What surprised you the most about 
this whole effort with anthrax, the exposure and the attempt to 
detect it and to treat it?
    Dr. Hamilton. The most concerning thing to me was the use 
of so many different protocols by different groups within the 
Federal Government that weren't communicating with each other. 
And the fact that, in the case of the U.S. Postal Service, they 
may have adopted a procedure that might have been suboptimal in 
terms of pulling spores off of a surface. And so the 
communication issue has been dealt with effectively by the GAO 
report, but the end result was that we needed to develop a 
consensus guideline for an optimized surface collection and 
testing strategy. And that's what surprised me the most of all 
the things.
    Mr. Shays. I look for what I hope--I can appreciate the 
bottom line in the hearing, but that strikes me that may be the 
core message here.
    But before giving my colleague his 10 minutes for a second 
round, should I be surprised that there wasn't a protocol? I 
mean, it seems kind of basic. With all the hearings we have had 
with scientists over the course of the last 8 years, this seems 
to me like what you would do in grammar school. In other words, 
this would be kind of basic stuff.
    Dr. Hamilton. In laboratory science, in running a clinical 
laboratory, we have other controls, we have validation of our 
procedures essentially well-established. So this should be a no 
question, a no brainer. And the fact that there was lack of--
you have to appreciate that it was done in haste and there was 
an urgency, so I appreciate that fact. But it's been now quite 
a few months after the fact, and we're still in the same spot, 
and that's what concerns me is that we need an agency to pull 
this together. We need to get some support for that agency, and 
then we need to validate these procedures. And those are my 
three recommendations and I still believe that they are 
supported by this one recommendation.
    Mr. Shays. When government employees were being tested in 
the Capitol, this was after the exposures in Leahy's office and 
Daschle's office, contamination. My employees were being sent 
to the Hart Building to be tested, and so were everyone else's.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you. When the hearing is over, we 
would hope we can accomplish something and can make some 
recommendations. And right now, we're hearing that there needs 
to be one agency that is going to have to pull all this 
together. Do you have any recommendations on what agency that 
would be or--let me ask that question.
    Mr. Ungar.
    Mr. Ungar. Yes, sir. It would seem with the recent creation 
of the Department of Homeland Security that would probably be 
the appropriate location because we have so many different 
Federal agencies that are involved: the Postal Service, EPA, 
OSHA, Department of Health and Human Services, plus leading 
coordination with State and local health departments and 
others.
    Mr. Ruppersberger. Anyone else have a comment on that? Yes.
    Mr. Shays. For the record, so it shows up, maybe we can get 
a vocal response.
    Dr. Rhodes. I concur with my colleague's opinion.
    Dr. Hamilton. I also concur, very much so.
    Colonel Henchal. I concur also.
    Mr. Ruppersberger. Let me go through the line again. The 
resources that you think would be needed, as it relates to this 
issue, so that agency could probably pull it together and buy 
the necessary equipment to be able to determine that procedures 
are validated, and we can protect our employees and customers.
    Mr. Ungar. I don't know if it's a question of additional 
resources, right now. I think the first is leadership and 
initiative to call the parties together. And I don't think it's 
a question of there being no action right now, because there 
are a series of activities going on now to pull together the 
Federal Government's approach to dealing with these kinds of 
emergencies. The question is, what is the pace that's being 
carried out with right now, and once a real game plan is 
developed, then the question is, what additional resources 
would be necessary? And that kind of information, GAO doesn't 
have, at least in GAO at this point.
    Mr. Ruppersberger. I probably would agree with you with 
Homeland Defense, except for one thing. In my opinion, right 
now, Homeland Defense has not, again, been given the resources 
it needs to do what it needs.
    Now, we have finished with our war with Iraq, and we have a 
lot more to do there, but hopefully, we can bring in other 
countries to help us pay for what needs to be done. We can 
refocus on first responders. But if you are going to ask for 
money, you have to justify it.
    I am not going to get off that BDS system because what I 
have seen and what I think the postal officials will say that 
system seems to be working well, and they feel very secure that 
it is not giving false positives. I think it is important if 
that testing has been done, that the entire community come 
together and at least look at it, because I would like someone 
else's opinion with respect to that piece of equipment.
    Dr. Hamilton. The surface samples were those samples that 
gave us the real information. So if that device is designed to 
run air sampling, a word of caution to the wise.
    Mr. Ruppersberger. And Colonel you brought up that issue.
    Colonel Henchal. We need more scientific peer review. I 
agree with the leadership issue is the most critical one. We 
really need to be able to compare agency by agency about what 
technologies are really available and then be able to make 
really thoughtful recommendations to the Congress and others on 
what should be the next----
    Mr. Ruppersberger. I have a suggestion, and I would like 
your comments on it. I remember or I think we will always have 
serious issues as relates to drugs, drug interdiction and drug 
law enforcement areas. And one of the more successful programs 
was when all law enforcement came together in a strike force 
type of situation.
    And why I think that worked, I mean you had the FBI got 
jurisdiction, you had DEA, State police and local governments. 
But in a strike force situation, you had a group of people 
targeting on one issue. They developed relationships and trust. 
And it seems to me that somehow we need something like that 
rather quickly because as far as I am concerned, time is a 
wasting. You have employees right now that I am sure that don't 
feel very secure as it relates to their health. That is not a 
very good working condition. And I think it's very important, 
and I am sure this is why we are having this hearing today that 
we are focusing on the best way to get it started.
    When I walk out of here and the No. 1 issue you're talking 
about is leadership, where does this go? No. 2, and how do you 
deal with the issue of early detection and rapid response.
    What do you think you could do as it relates to the 
employees as far as communication is concerned, looking at how 
we handled it in the past? And what we can do now, as it 
relates to communication to the employees who are there 
everyday and feel insecure based on some of the testimony 
today?
    Mr. Ungar. The first thing we had recommended, and I think 
everybody, Postal Service, EPA and all the Federal groups that 
commented is that there needs to be a good Federal guideline on 
communication. The agencies need to be brought together by good 
leadership to reach an agreement on what kind of information 
ought to be provided to employees. In a nutshell, in the 
Wallingford situation, it is very clear that the information 
was not sufficient on the quantitative results. As a matter of 
fact, even the qualitative results were not provided to 
employees quickly enough.
    For example, the test results with respect to 3 million 
spores were available to CDC and to the Connecticut Department 
of Public Health on December 6. Prior to that time, the trace 
amounts had been identified, but the employees were not 
informed about even the term concentration until December 12. 
So there's a 6-day delay between the time that the public 
health authorities knew about the contamination being so 
extensive and the time that the employees were informed about 
the extensiveness of it. There is definitely a need to get more 
prompt and complete communication to the employees.
    Mr. Ruppersberger. One thing I would suggest is you have a 
system set up that could be a manual set up. I mean a lot of 
jurisdictions throughout the country are doing that in the 
event there is any type of terrorist situation. One of the 
things I think would make the employees feel more secure is to 
have an employee as a part of that group that is going to help 
analyze and disseminate information. Getting back to the BDS 
system, and not because they are being manufactured in my 
jurisdiction, but let me ask you this question, based on what 
you're saying, in the different technology or testing 
mechanisms that are out there, would that system, depending on 
what your analysis of it is, be a part of the systems that 
should be used in conjunction with other systems to make sure 
that we're on top of it? In other words, if that system is what 
you think it is right now and would that be a part of something 
we should have in our portfolio, so to speak, to be able to 
deal with that situation as far as anthrax is concerned or any 
other agent such as anthrax?
    Colonel Henchal. I agree it could be part of a total 
system. It has to be integrated with many different approaches 
for how you look at it and evaluate the contamination of 
instruments and surfaces and everything. What's more important 
is for us to have a scientific peer review of the performance 
to date and make sure that we have good consensus on that 
performance.
    Mr. Ruppersberger. Thank you. Mr. Ungar.
    Mr. Ungar. I would just like to add a couple of things. GAO 
did look at the Biodetection System early on and had a number 
of recommendations that we made to the Postal Service about 
making sure that the appropriate testing was done, and I 
believe the Postal Service did agree with that and did make 
some changes to its testing of that equipment.
    We also planned, as far as I know, to look at that again 
here soon. And the third point is, we agree with you that the 
Biodetection System needs to be a part of a much larger 
assessment in the Postal Service about how to deal with this 
issue of mail security. There are many different things that 
are coming into play here. And for example, the whole process 
that the Postal Service uses to process mail. We held a 
conference back in December 2001 at the request of the members 
of the full committee in which a number of ideas were thrown 
out in terms of looking at the different ways anonymous mail is 
processed versus mail from known mailers and other aspects of 
the Postal System in terms of being able to identify who the 
mailers are and being able to handle mail in a manner in which, 
if it is contaminated, it doesn't contaminate the whole 
facility once it gets inside the facility.
    Dr. Hamilton. With regard to the funding--Johns Hopkins--in 
fact, I live in your district. One issue with regard to support 
for academic and industrial researchers would be to NIH, which 
is funded to study infectious disease and expand their scope so 
they can include that as one of their areas of investigation. 
They have closed out this whole area of environmental testing 
and focused on the medical issues relating to anthrax. It would 
be an immediate, easy approach to get this extra funding for 
external investigators in academic and industrial facilities.
    Mr. Ruppersberger. That is a very good suggestion, but 
again, we are going to have to refocus our priorities. That's 
one of the major issues right now. Thank you.
    Mr. Shays. Governor.
    Mr. Janklow. Thank you, Mr. Chairman. I guess I have to ask 
you Mr. Rhodes, on November 11, they conducted tests at the 
facility. November 21, they conduct a test. November 25, they 
conduct a test. And it wasn't until the 28 test that they found 
the 3 million spores. Do we know or don't we know whether or 
not the anthrax came into that facility before or after 
November 25?
    Dr. Rhodes. Could you repeat your question again?
    Mr. Janklow. Do we know whether or not anthrax was present 
in the facility on November 11, November 21 and November 25, 
when the dry swabs tested negative? I am not arguing the 
efficacy of dry versus wet or some other kind of testing, as 
much as I am asking the question, do we or don't we know at 
what point in time the anthrax spores came into the facility at 
Wallingford?
    Dr. Rhodes. We have an idea of when it came in. I mean we 
don't know exactly----
    Mr. Janklow. Based on what?
    Dr. Rhodes. Based on a reverse trace of the mail that went 
to Ms. Lundgren's home. You can read the bar code on the mail, 
and you find out exactly what machine handled it, and what date 
it passed through.
    Mr. Janklow. Was this the 94-year-old lady----
    Dr. Rhodes. Yes.
    Mr. Janklow. Was there anthrax in that letter in her house?
    Dr. Rhodes. Well, there wasn't any anthrax found. She did 
die of inhalation anthrax.
    Mr. Janklow. This is important because we may be drawing 
bad conclusions. Do we know or don't we know that the anthrax 
she got came through the Postal Service?
    Dr. Rhodes. Well the assumption----
    Mr. Janklow. No. Do we know? We don't, do we?
    Dr. Rhodes. Do we know? There was another case of anthrax--
bacillus anthracis spores were found along the mail route. We 
also know----
    Mr. Janklow. I probably didn't ask my question very 
clearly. Did we find any anthrax, at all, in this lady's House, 
the 94-year-old's House?
    Dr. Rhodes. No.
    Mr. Janklow. Did we find any on her letter?
    Dr. Rhodes. No.
    Mr. Janklow. So we don't know how she was exposed to 
anthrax? We can assume it, but we don't know how she was 
exposed, do we?
    Dr. Rhodes. That is true. We do not know exactly how she 
was exposed. We don't have the concrete evidence.
    Mr. Janklow. Sir, you keep saying that, like somehow that 
it was the Postal Service. We are concluding that without 
evidence? What we have at best is slight circumstantial 
evidence. The postman that delivered the mail to her house, was 
his pouch tested? I assume it was.
    Mr. Janklow. Do you know whether or not they found anthrax 
in that?
    Dr. Rhodes. If I recall right, they did find anthrax in the 
vehicle and in the mail carrier's bag, I think.
    Mr. Janklow. Did they find----
    Dr. Rhodes. I am trying to recall those details.
    Mr. Janklow. Did they find any anthrax in any houses along 
that route?
    Dr. Rhodes. There was one other house they found anthrax in 
the mail.
    Mr. Janklow. And that one that was--did the person get 
anthrax?
    Dr. Rhodes. No. Did not get sick.
    Mr. Janklow. The protocols that we are talking about, do we 
have a set now? It's 2 years later. It's a year-and-a-half 
later. Do we have--Dr. Hamilton, do we have protocols in place 
or Colonel, now are we uniform in terms of the testing process 
or modality that is going to be followed.
    Dr. Hamilton. Yes and no. We have protocols in place that 
have been established by several groups. They're published. Are 
they optimized or validated? In my opinion, the answer is no. 
Can they be improved rapidly and readily, and the answer is 
yes. And we have written 12 suggestions in our testimony of 
actions that could be done immediately that would essentially 
bring some of the methodologies up to a reasonable level.
    Mr. Janklow. Colonel, I am digging up an old memory, but 
wasn't there something 25 years ago where there was some sheep 
in Utah or Idaho----
    Colonel Henchal. Nerve gas.
    Mr. Janklow. Have, we as far as you know, contacted the 
Russians for their help in determining how much anthrax it may 
take to kill people and testing process, etc?
    Colonel Henchal. I'm not aware of--it's been sometimes very 
difficult to find the information in the former Soviet program, 
as you know. There hasn't been always complete openness.
    Mr. Janklow. I understand. Have we tried?
    Colonel Henchal. We have certainly tried, and we continue 
to work through a program called the Cooperative Threat 
Reduction Program, but being able to get the right dialog has 
always been a challenge.
    Mr. Janklow. The program we have with the United States 
assist in getting rid of former weapons of the Soviet Union, is 
that just a nuclear program, the one we spent $7 billion on, do 
you know or does that involve other weapons of mass 
destruction?
    Colonel Henchal. I can't comment on that.
    Mr. Janklow. When I look at the materials, it indicates 
that the Postal Service--just the Postal Service, alone, in 
this country, there's 85 districts, there's 385 distribution 
and processing centers and 38,000 post offices, stations and 
branches. Now, if we assume that the Federal authorities in 
terms of what they said publicly is that this was not a--in--I 
can say it this way, a foreign act of terror, and they feel it 
is a lone person that did it, let's assume for a moment that 
it's an organized group bent on wreaking havoc on the United 
States that mails letters from 2 or 300 different areas where 
they have distribution centers, do we have a system in place at 
all to cope with that?
    Mr. Ungar. Unfortunately, sir, I'm not sure we do at this 
point. I think when the Postal Service is up next, you can ask 
it, but I would be surprised if there is a system that could 
cope with several hundred letters of the nature that were sent 
through Trenton and Brentwood and eventually ended up through 
cross-contamination, because if you are sending several hundred 
letters--and of course, there is no biodetection equipment now, 
other than the test locations. So, if you take several hundred 
letters themselves and going through these processing machines 
where they would conceptually cross-contaminate a lot of other 
mail, a lot of mail that would be going to different parts of 
the country, would be enormous, and it would require a huge 
effort to deal with.
    Mr. Janklow. If I were to conclude that the protections we 
have for our people, for the workers and the people, for the 
Americans at this point is probably illusory----
    Mr. Ungar. Hopefully, the positive side of this, sir, is 
that we learned a lot of lessons since the last fall of 2001, 
and we would be much better prepared to deal with it, but I 
don't think we would be in a position to stop and detect it 
before it got into the postal system. It would probably get 
through the postal system and into the public before it would 
be detected, but, hopefully, we would be able to better deal 
with it after it happened at this point in time.
    Mr. Janklow. Dealing with it in terms of everybody running 
out and getting Cipro again?
    Mr. Ungar. I would hope that there would be great 
cooperation and coordination between all the organizations now 
that we have the Homeland Security in operation now.
    Mr. Janklow. We do, sir but given the monumental task they 
got in trying to bring all these disparate agencies together 
and work through all of the accommodations--this is like trying 
to get the U.N. to work together or 20 years ago the Army, 
Navy, Air Force and Marine Corps, which has gotten a lot 
better. But the Homeland Security Department has just come 
together. And I think maybe we are throwing too much of an 
assumption all of a sudden in terms of what they are capable of 
getting done in weeks and months. Would you disagree with that?
    Mr. Ungar. It would be tough, but at least it's there now 
and the role is there. Clearly before one of the dilemmas was 
that there was no clear notion of who was in charge. As Dr. 
Hamilton was saying, you have a large number of agencies at the 
Federal level, State and local organizations, public health, 
criminal investigation units, and so on. At least now, it's 
clear that Homeland Security is responsible.
    Mr. Janklow. Dr. Hamilton, do you know whether or not 
people in the--academic people like yourself, academia, the 
researchers, the investigators have been engaged yet in terms 
of anthrax and other viruses, toxins and bacteria? Have they 
been engaged in putting together the testing modalities, 
testing and procedures and the analytical aspects and the best 
protocols to follow and those types of things?
    Dr. Hamilton. I don't believe the academic community has 
been mobilized because there has been no clear mission 
statement, unifying mission statement made to the academic 
community. When we go to NIH to get our grants funded, they 
have no absolutely mission in this area whatsoever. And NIAID, 
which should be supporting this, in fact, doesn't.
    While they have the capability and they have been studying 
the medical aspects of these diseases extensively, the actual 
designs of methods--there are those rogue places, like our 
group, where we have taken the interest and actually focused on 
this issue with our own means. But the answer is, in general, 
no. We have the capability of supporting the governmental 
facilities and agencies which we are going to hear from 
shortly, but they have not been mobilized yet.
    Mr. Shays. I want to acknowledge the presence of Ms. 
Sanchez and the ranking member, Mr. Kucinich. Both have 
requested Ms. DeLauro go next. I will be asking, Dr. Hamilton, 
for you to illustrate our detection capability. I believe you 
have a sample. I will do that after Ms. DeLauro is done.
    Ms. DeLauro. Thank you very much, Mr. Chairman, and I want 
to thank my colleagues as well.
    In the GAO report that came out in April 2003, I know that 
there was real concurrence on the notion of a single agency 
housed with Homeland Security. I believe, as well, that we're 
probably overwhelming this agency. But nevertheless, that was 
not the kind of recommendation that was made within the GAO 
report. And, in addition to which, in a further conversation 
with Dr. Hamilton that the coordination of these kinds of 
efforts along with the academic community was not listed as a 
recommendation, as well, to incorporate the body of knowledge 
that the academic community has here. The notion has been, why 
didn't you make the recommendation on a single agency, 
Department of Homeland Security, academic community in your 
efforts here?
    Mr. Ungar. Good question. We have a reason and the reason 
we didn't is that because that effort in Wallingford was the 
first step in a, first in a series we are going to be doing in 
this area. And testing, we are currently doing work at several 
different postal facilities that were affected by anthrax to 
see--actually compare them to Wallingford and look at the roles 
and responsibilities in a little broader context than we did at 
just one facility. We certainly wouldn't disagree with Dr. 
Hamilton, and I don't want to be too much of an optimist. One 
of the agencies that was not involved, of course, it wasn't 
created at the time this was going on was Homeland Security. We 
did send a draft of our report to the Department, but 
unfortunately it didn't respond to our draft or didn't comment 
on it, including the recommendations. So we were somewhat 
disappointed there.
    Ms. DeLauro. How many agencies are now involved?
    Mr. Ungar. There are several. The ones that were most 
heavily involved were the Department of Health and Human 
Services and several components, including Centers for Disease 
Control and Prevention, but there were some others. The 
Department of Labor with OSHA, the Environmental Protection 
Agency, and the Army Corps of Engineers helped with the 
cleanup. Of course, the Postal Service was involved, and then 
there were State and local health departments. The FBI was 
involved, and we could go on.
    Ms. DeLauro. If I understand you, you are going to make a 
further recommendation about consolidating these efforts and 
housing this particular function of those agencies in one 
place, either with the Homeland Security or in another single 
agency to do this?
    Mr. Ungar. I am not sure how we will come out in the 
report. We are addressing that issue directly, and it sounds 
like a logical direction to take.
    Ms. DeLauro. Further to Dr. Rhodes and Mr. Ungar, the GAO's 
report found that the Postal Service decision not to release 
the test results was understandable for a number of reasons, 
one of which was the advice it received from public health 
officials during its testimony. Dr. Rhodes, you said public 
health must focus on prevention. In order to focus on 
prevention, it seems to me that people need to be fully 
informed of the risks that they take.
    Can you tell us exactly what advice the U.S. Postal Service 
received from public health officials that led them to withhold 
that information?
    Mr. Ungar. I am glad you stated that question--this was a 
very difficult and challenging situation at the time all this 
was happening. It was a crisis situation, and there were many 
different agencies involved that we indicated there, involved 
in the Wallingford case, as you know, with the FBI doing a 
criminal investigation in public health. We had a difficult 
time trying to ferret out exactly what happened back in 2001 
when this was taking place. We talked to all the relevant 
parties and got somewhat conflicting information we couldn't 
resolve. Dr. Hadler who you will hear from shortly basically 
told us that he discussed this at length with the Postal 
Service and identified a number of optional ways in which the 
Postal Service could communicate the situation to the 
employees.
    On the other hand, the Connecticut postal officials who we 
spoke to said that they really perceived that he directly 
recommended use of the terms trace and concentration. So we had 
a little bit of a disconnect there that we were unable to 
resolve. One reason was that, obviously, recollections are 
probably fading now because it happened so long ago. And the 
other issue was, there was no documentation kept. So we were 
told identifying or documenting what individuals said or 
advised or what people heard at the time and that's one of the 
recommendations that we did make.
    Ms. DeLauro. In terms of your current recommendations, what 
is the process for oversight of those recommendations now, and 
how is that going to proceed?
    Mr. Ungar. The ones in our report?
    Ms. DeLauro. The ones in your report. You told me you are 
going to do some other work in terms of the single-agency 
concept, but in terms of the procedures you have here.
    Mr. Ungar. In terms of the recommendations in our report, 
they are basically--the next step is for each of the agencies 
to which we made a recommendation, within 60 days of the date 
the report was released, to write a letter to this committee 
the Senate Committee on Governmental Affairs and the 
Appropriations Committees, detailing the actions that they've 
taken, and plan to take, and, of course, we will followup with 
those agencies to assure or at least to report on what they 
have done.
    Ms. DeLauro. Dr. Hamilton, how can and should tests be 
validated? Or everytime this comes up, we are going to say we 
can't validate the tests, therefore----
    Dr. Hamilton. Well, in the clinical lab, we use positive 
controls to validate the test. And by validate I mean looking 
at the performance characteristics, the minimum detectible 
concentration, the reproducibility, the quantitative features 
of it.
    Ms. DeLauro. Why couldn't we validate those tests or at the 
least the basis on which we said in the report that we couldn't 
validate, therefore, we couldn't get accurate information to 
people.
    Dr. Hamilton. Well, I think we can validate them. We didn't 
validate them at the time this event happened. It happened--in 
hindsight clearly----
    Ms. DeLauro. So we could have, but didn't?
    Colonel Henchal. Ma'am, if I could. There were few 
laboratories where live anthrax could be used at that time, and 
there were actually very few people that had enough familiarity 
with the agent to do the validations. You might remember the 
two major centers for working for anthrax and many other 
biological warfare agents, are places like USAMRIID and the CDC 
in Atlanta.
    Ms. DeLauro. You can do that in your facility, Dr. 
Hamilton? Is to validate ----
    Dr. Hamilton. What we are doing is working with Edgewood 
Arsenal right up the road from us. We can use surrogates in our 
laboratory, but the final testing will be done at Edgewood and 
or Dugway, the two facilities that can do that well, and we 
will hear of that from NIOSH.
    Ms. DeLauro. Was the term ``trace amounts'' the information 
that was passed on to the workers in the facility? Dr. 
Hamilton, Colonel Henchal, was that misleading as to their risk 
and their potential health, in your professional view?
    Dr. Hamilton. In my opinion, it is a confusing term that's 
undefined. And terminology is one of the statements or one of 
the recommendations of the GAO report, to clarify the 
terminology. So I would say, yes, it's confusing.
    Ms. DeLauro. And misleading?
    Dr. Hamilton. And misleading.
    Colonel Henchal. I agree it's a confusing term. Whether it 
was done intentionally, I can't comment on that. One problem--
--
    Mr. Shays. Will the gentleman suspend? No one is suggesting 
it's intentional.
    Colonel Henchal. I apologize for the remark, but it's 
difficult to interpret that result, and I think that's what 
they were faced with.
    Dr. Hamilton. This brings up the issue of units. And one of 
our recommendations in our testimony was to use colony forming 
units per area instead of colony forming units per mass. And 
per mass unit comes from our work with--our allergy community 
work, where we measure mold spores in colony forming units per 
gram, and we can do that effectively because we have standards 
and we have controls. But in this case--we want to define the 
total burden of the contamination.
    And so the units were one of the issues, I think, that was 
also brought up in the GAO report.
    Ms. DeLauro. The final question I asked Colonel Henchal the 
last time and I do want to ask the rest of you, given what we 
know now, and it's hindsight, and I make no apologies for 
saying it with hindsight, do we believe that given the 
potential risk to these workers everyday, and they work every 
single day, and that plant was never closed down, should we 
have been prudent, should we have closed the plant down and did 
what we had to do? We closed Federal Government buildings down 
to protect Members of Congress--I'll let you answer the 
question. Should we have closed this facility down while we 
were checking it?
    Mr. Ungar. I don't know that I am in a position to answer 
that question. All I can say is, based on the information we 
were provided, which was provided by the Centers of Disease 
Control and Prevention and the Connecticut Department of Public 
Health, they identified a number of reasons why it didn't need 
to be closed down. I am certainly not in a position to evaluate 
that, but there were a number of reasons that they did provide, 
which we do have in the report.
    Ms. DeLauro. Dr. Rhodes.
    Dr. Rhodes. Absent understanding the lethal dose question, 
and that's really at the heart of your question, you're saying, 
were people exposed to a lethal dose? And as you heard from 
Colonel Henchal and in the discussion, no one can give you that 
answer right now. So we, the GAO, aren't in a position to make 
that statement, but we can say those are the two items or 
factors that need to be brought in. What is a lethal dose? And 
it can't be just geared toward what's called the LD50, the 
lethal dose for 50 percent of the exposed population, because 
now that we have the--you have outlines as it were, the woman 
in Connecticut who is dead from inhalation anthrax, that proves 
that the lethal dose for 1 percent is real and those things 
need to be factored in to the decision--the discussion you are 
having.
    Ms. DeLauro. Dr. Hamilton.
    Dr. Hamilton. I agree with Dr. Rhodes. We have that seminal 
question that needs to be addressed. But given the fact that 
the results were withheld because of a conclusion that the 
methods were not validated or not validatable at that point, I 
think the conservative thing would have been to close the 
facility and to test it with other methods bringing in a 
consensus, consensus from other governmental agencies that have 
different approaches.
    Ms. DeLauro. Thank you.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, let me take my time and begin, Mr. 
Hamilton. You have sampling equipment; is that correct?
    Dr. Hamilton. We have an example of various methods of 
sampling.
    Mr. Shays. Why don't as you describe it, talk about its 
benefits and limitations.
    Dr. Hamilton. I am going to ask my colleague, Barry 
Skolnick, who was instrumental in getting this information. 
Many of the items came from NIOSH, and the vacuum sampling 
device came from us as well.
    Mr. Shays. You are going to need a mic?
    Mr. Skolnick. My name is Barry Skolnick.I am an association 
of Dr. Hamilton's at Johns Hopkins, and thank you for this 
opportunity.
    Mr. Shays. Tap this mic.
    Mr. Skolnick. We came with the courtesy of the folks at the 
National Institute for Occupational Safety and Health. We have 
a few examples to put some physical realities to some of these 
ideas. We have examples of the swab, the wipe and the HEPA 
vacuuming device, the kind that were used, and we can say a few 
things about them.
    This is a swab. You are all familiar with this so-called Q-
tips type of thing. What's important to say about this, it's 
like your toothbrush. How many different ways are there to use 
a toothbrush? There are a lot. And one of the issues in our 
concerns in looking into this matter is the general vagueness 
of some procedures as to how to use it. So you have to keep in 
mind that we talk about a device, there is not a unitary 
definition of what that means. It's a matter of a system of 
what materials are used, different commercial items, the method 
by which they're used, and the method by which they are 
extracted and analyzed in the laboratory.
    So what you're seeing now is only part of the story and is 
it not necessarily the best or optimal way of doing it. But 
this is a swab which was intended to sample small areas. I 
think it's instructive to point out that both CDC and the 
Postal Service called for about a 100 centimeters squared 
coverage area, about 4 by 4 inches.
    There's at least two other procedures we know of, one by 
the National Aeronautics and Space Administration as part of 
their Planetary Protection Program. It's about 25 years old. It 
calls for a quarter of that area, 2 by 2 inches for sampling. 
There is a European procedure that was just validated in 1997 
that called for a fifth of that area, 20 square centimenters. 
As far as we know, no one has looked at this to see whether you 
can cover 100 square centimeters with a swab with any 
thoroughness or reproducibility. And it is the kind of question 
that needs asking. That is why a peer review and an organized 
process is needed. But I would also say, going back to NASA 
again which we understand is an agency under your jurisdiction, 
they have a very impressive record over 30 years in this 
planetary quarantine or planetary protection process of using 
swabs to look at the surface of spacecraft and achieving very 
high sensitivity down on the order of 300 spores per square 
meter, it's a number, which is their contractual standard and 
they've published on this. With swabs they are able to do this 
on the clean surfaces of spacecraft. So it is not necessarily 
true that a swab is inferior. It just may be that the 
procedures that have been used recently are not really 
validated for the purpose to which they were being used. So 
that's a snub.
    Mr. Shays. And the advantage of it being wet versus dry?
    Mr. Skolnick. We can say, categorically, that we have gone 
back to the literature, back to 1917 when the ``swab rinse'' 
assay was first in the literature. Swab being the device and 
rinse being the wet extraction technique for environmental 
sampling. We found nothing in the entire literature that we 
have looked at that justifies the use of a dry swab for this 
purpose. In the doctor's office, the dry swab is used to take a 
throat specimen where you use it to pick up moist tissue 
samples. If the surface were moist, you would use a dry swab. 
But to look at dry surfaces, there is simply nothing we have 
seen that represents a prior history that would justify its 
use. And the literature that has come since suggests it is not 
very effective.
    So I think, clearly, a wet swab would be better, but there 
are different ways of doing a wet swab. And we don't go into 
all these details. We have indicated some that we think need 
looking into, and we don't necessarily have all the answers. 
But it is clear that wet is better than dry, not only in 
principle and in literature, but also indicated in performance 
as indicated at Wallingford and Brentwood.
    The other thing I should say about the swab, imagine you 
are in one of these personal protective equipment ensembles, 
``spacesuit,'' ``moonsuit,'' thick gloves and then a second 
layer of gloves, and you have to open the package that the swab 
is in in a sterile fashion, so you don't cross-contaminate it. 
One of the issues involved is interoperability and the 
practical issues for using in these devices is considering the 
entire range of the context in which you are using them. And 
I'm not saying they're using them in just this way, but it's 
part of a total systems problem, not only to have a device but 
to consider the ways in which you use it in the entire process 
that are most practicable, and that can be made uniform. If you 
have 20 different teams in 20 different places doing this, how 
do you know they are doing in it in a similar fashion according 
to some quality assurance and have trained in a proficient 
manner? These are issues that need addressing.
    The next one is the wipe and this has some interesting 
related matters. This is gauze of the kind that you are 
familiar with. It was sent to us by NIOSH. Illustrating the 3 
by 3, it would be wiped and folded and wiped again. We have no 
expertise in this directly ourselves, but, again, we have 
looked at literature. NASA has had a wipe-rinse procedure since 
approximately 1980 that has been standardized and practiced. 
They don't use a wipe like this. They use a wipe that is 10 by 
10 inches, not 3 by 3 or less, in a certain way and certain 
manner. And the question that arises for us is, why are these 
wipes being used instead of the other? Undoubtedly, this could 
be handled in less fluid, but we don't know what the basis is 
of using the small wipe. And I would point out that the 
original wet wipes that were used at Brentwood gave a very poor 
result. They were cotton. These are noncotton, so there are 
some questions here. But I'm pointing here, again, with a pitch 
again, NASA has a history of relevant technology. That agency 
has not been part of the bioterrorism or the terrorism response 
activities of the Federal Government, that I am aware of, and 
maybe that is something you could look into. Of course, these 
are always used wet. The third procedure----
    Mr. Shays. I don't want you to talk unless you are talking 
into the mic. We have to transcribe--I don't have to--in fact, 
the only one who is working here today, is the transcriber.
    Mr. Skolnick. My apologies. The third type of device is 
called a HEPA vacuum cleaner. ``HEPA'' means high efficiency 
particulate air.
    If you look into this thing you would see a lot of folded 
paper material which is very good at trapping small particles 
and has a high capacity. That's the HEPA filter. We actually 
have a double filtering process here. That is recommended by 
NIOSH, and they have been using this for some years now. It's 
been used in remediation for asbestos and other environmental 
particulates for a considerable period of time. You trap the 
small things in here, so they don't get out in the environment 
from your vacuum. But the filter they are talking about is a 
different device, put in a different place. This is, as Dr. 
Hamilton showed you, called a nozzle sock, a dust collection 
trap. And it is inserted at the end of the hose, something like 
this, so that this little filter will trap the small particles 
off the surfaces that you are trying to collect from. And this 
is the kind of setup, the kind of arrangement that was used and 
held down by hand against surfaces to collect the HEPA vac 
samples, including the famous ones of the 3 million spores at 
Wallingford and so forth.
    So it has a certain advantage of having a larger or smaller 
area of coverage much more than the other, but it has some 
issues too particularly the validation of its procedures. So 
that's my presentation.
    Mr. Shays. Thank you very much.
    Before I go to Mr. Kucinich, I would like to ask Dr. 
Melling--you stood up and you were sworn in. Dr. Melling used 
to be the Director of Porton Down in Great Britain, and I am 
interested to have you tell us--are you a U.S. citizen now?
    Dr. Melling. Permanent resident.
    Mr. Shays. How would Great Britain have dealt with this 
issue?
    Dr. Melling. What I say is somewhat speculative because 
they were never faced with--we had two incidents. We had an 
island that was contaminated in 1942-43 as a result of joint 
U.S. British biological warfare experimentation. And that 
island was closed to the public and any visitors for 40 some 
years until it had been decontaminated, and until post 
decontamination samples were proved negative and until sheep 
had been let loose on the island--I think it was for two 
consecutive summers--and all the sheep survived. At that point 
people were sufficiently confident that the island was safe, 
and it was then returned to its original owners. The cost of 
that was several million dollars. It was worth spending that 
money to decontaminate. The second incident was, I think, it 
was the late 1980's. Kings Cross Station in London was 
undergoing refurbishment in London, and the original station 
roofing area had been insulated with horse hair. This must have 
been the 1800's. That horse hair turned out to be contaminated 
with anthrax. The appropriate areas in the station were sealed 
off and the horse hair was removed. There was decontamination 
carried out, and, again, post that procedure, confirmation that 
no antrax could be found. So I think, and my opinion is that I 
agree with Colonel Henchal in his written statement, that in 
the absence of detailed and good scientific knowledge, prudence 
is the sensible course. And I agree with Dr. Hamilton that a 
key issue is to have well-validated test procedures. And in the 
absence of well-validated test procedures, we, again, don't 
know enough to make sense or judgment.
    And I will conclude in a remark, there was a British 
scientist, Lord Kelvin who said, ``If you can't put numbers on 
it, it's not science.''
    Mr. Shays. Thank you very much. You may stay there.
    Thank you, Mr. Kucinich, for your patience, and good to 
have you here.
    Mr. Kucinich. Thank you very much, Mr. Chairman and members 
of the committee.
    Mr. Chairman, I want to thank you for holding this hearing, 
and I want to say that when we're looking at trying to protect 
those who work for our government and the general, public from 
any kind of a biological attack, I think it's instructive to do 
what we are doing here, which is to look at how systems can be 
and have been improved to provide detection and protection. I 
also think, though, that we're only really at half-measures 
here, and this is by no means criticism of our distinguished 
Chair, who I have the greatest respect for, because to talk 
about as we are today, prevention, without talking about the 
events of 2001, is to really miss an opportunity to reflect 
upon where that anthrax came from.
    Now, Colonel, you are from Fort Detrick, MD?
    Colonel Henchal. Yes.
    Mr. Kucinich. Prior to September 2001, did you ever have 
any discussions with officers in charge of biological agents at 
Fort Detrick, MD where they work on research and development of 
such agents? Did you ever have any discussions of the custody 
of any biological weapons, agents over at Fort Detrick? In the 
event those agents ever came out of a laboratory there?
    Colonel Henchal. The issue of biosurety was one--even as a 
principle, was one that only evolved after the events of 2001. 
Through its 34-year history, USAMRIID was principally an 
academic center.
    Mr. Kucinich. Could you speak a little louder, please?
    Colonel Henchal. Until the events of 2001, the idea of 
surety as an issue for biological agents didn't exist. It only 
evolved after the events of that terrible October. Through its 
34-year history, USAMRIID was principally an academic 
scientific institution, and the standards that we use were the 
same as were being used at the CDC or were being used at the 
National Institutes of Health. We never thought, and had 
tremendous confidence in our scientists, that agents from our 
laboratory would be taken or would be released in some 
nefarious way.
    Mr. Kucinich. So as you say there was never any discussion 
about what would happen if any of those agents were ever from 
that laboratory were ever released?
    Colonel Henchal. Throughout our history, we did have 
systems to protect the work force and to protect the Fort 
Detrick community in Frederick. We have extensive, and have 
always had extensive, security and extensive restrictions on 
how to get to our laboratories. The issue for us had always 
been safety as the No. 1 concern. And that's pretty much how we 
were designed, based on safety, but not necessarily surety, 
which is really a different set of guidelines. We actually 
continue to have terrific records on the agents we were using 
and we're in compliance with the new rules about how to ship 
the agents that were put in place in the late 1990's.
    Mr. Kucinich. When you speak of surety, tell me immediately 
after the incident of the release of the anthrax, did you have 
any discussions with any of your associates at Fort Detrick 
relative to the fact that the anthrax may have come from a 
government laboratory at Fort Detrick, MD?
    Colonel Henchal. No. We really didn't. That was so far out 
of our mind that the people that were working and had dedicated 
their lives to biological defense would be involved in this 
event. We were concentrating in responding to the national 
response. And it was actually a complete surprise to us, come 
December and January, when those suspicions started to be 
raised.
    Mr. Kucinich. And do you know now? Do you know now whether 
or not Fort Detrick was the source of a strain of anthrax that 
ended up in circulation?
    Colonel Henchal. There's no question that the strain--the 
Ames strain was isolated at Fort Detrick, but that doesn't 
necessarily implicate the institution or the scientists that 
work there in making the materials.
    Mr. Kucinich. What does that mean then?
    Colonel Henchal. It means that many people had access to 
the actual strain; these are replicating agents. And this was a 
particular strain that was under study in many different 
laboratories, not only in ours, but also at the CDC, in 
academia, all had access to the strain eventually by the late 
1990's. We shared the strain with our colleagues at Porton Down 
even. But because these are replicating agents, someone can 
take those materials and use them in a way that USAMRIID would 
be completely unaware of. This is not something that has 
defined quantity that you can follow and know exactly how many 
organisms are there all the time. These are replicating agents. 
And so while we originally made the isolation of the strain, 
any other trained microbiologist and a few others would have 
been able to take that material and replicate it and use it in 
a way that we all had to respond to.
    Mr. Kucinich. Once you have isolated the Ames strain of 
anthrax as being the strain that was present at Fort Detrick, 
what efforts were made--what scientific efforts were made to be 
able to determine what other possibilities are that strain 
could have come from someplace other than Fort Detrick?
    Colonel Henchal. Well, that is in the hands of the FBI. 
Almost immediately after the events of October, the FBI has 
been at USAMRIID to try to make that determination. They relied 
on a lot of the shipping records that we had back to the 
1980's, where they could pinpoint locations where the strain 
had been shared.
    It's important to remember that USAMRIID did not have the 
capability and does not currently make living preparations of 
dried spores. So that particular capability didn't exist at 
USAMRIID.
    Mr. Kucinich. Are you prepared to say that there is no way 
that that anthrax could have come from Fort Detrick, MD, the 
anthrax that was in circulation?
    Colonel Henchal. I have doubt that it came from USAMRIID, 
primarily because we don't have much of the equipment really 
necessary to really make dried spores, viable dried spores in 
that way.
    Mr. Kucinich. Have there been any personnel changes over 
there since October 2001 with respect to people who had custody 
of those agents?
    Colonel Henchal. I'm not aware of any particular turnover. 
We have personnel turnover all the time.
    Mr. Kucinich. But not particularly anyone who had custody 
of those agents?
    Colonel Henchal. No, sir.
    Mr. Kucinich. And since the events of 2001, what kind of 
security procedures have you put in place with respect to the 
custody of not only anthrax but any other biological agents 
that are present at Fort Detrick?
    Colonel Henchal. I appreciate that question, and especially 
within the last year, I can say that USAMRIID has increased not 
only the physical security of the agents but also its safety 
program. We have quite a comprehensive program now. We are in 
compliance with DOD regulations within 90 days after I took 
command, and we are approaching compliance with all the 
requirements of the new regulations described in 42 CFR Part 73 
that specify additional measures be taken under the Federal 
Biosurety Program.
    Mr. Kucinich. What role do you see for the Centers for 
Disease Control in terms of helping coordinate programs that 
relate to an outbreak of biological agent in the general 
population?
    Colonel Henchal. I believe they continue to be an important 
agency and a focus for efforts to respond to the public health 
threat represented by these agents.
    Mr. Kucinich. Do you think their position should be 
subordinate to it, or should it be a coordinated position?
    Colonel Henchal. That's not my decision, but there 
certainly needs to be a way to coordinate all the interagency 
activities that are going on.
    Mr. Kucinich. Thank you.
    Mr. Chairman, I just want to say that I think this is a 
very useful discussion that this committee is having today. I 
also think it would be useful for the American public, too, and 
for this Congress, which, as we know, had its conduct 
dramatically changed during those days, for us to once again 
revisit this question of the origins of the anthrax, nature of 
the anthrax attacks. The American people still don't know. I 
think people have a right know and think this is the committee 
to do it, and I would just appeal to the Chair's thoughtfulness 
and consideration of this. Thank you very much.
    Mr. Shays. I thank the gentleman.
    We're going to get on with our next panel, but before you 
get up, is there anything that any of you need to put on the 
record? Mr. Ungar, Mr. Rhodes, Dr. Hamilton, Colonel, anything 
you need to put on the record that we will be happy as part of 
the record? All done? Thank you all very much.
    Our next panel will be Mr. Thomas Day, vice president of 
engineering, U.S. Postal Service; Mr. William Burrus, 
president, American Postal Workers Union; Captain Kenneth 
Martinez, engineer, Centers for Disease Control, accompanied by 
Dr. Bradley Perkins. We'll have them sit up front, and then 
we'll have Dr. James L. Hadler, State epidemiologist, State of 
Connecticut, Department of Public Health; and Mr. R. Davis 
Layne, Deputy Assistant Secretary, Occupational Safety and 
Health Administration.
    You might stay standing because we're going to swear you 
all in, if you will stand, even if you were sworn in the first 
time.
    [Witnesses sworn.]
    Mr. Shays. For the record, our witnesses have responded in 
the affirmative.
    We thank you very much for being here. We thank you for 
your patience. I think you've heard some of the questions that 
have already been asked, so you may want to incorporate it in 
your statements. We're looking for 5-minute statements. You can 
run over, but not too much longer than that. And the clock will 
go 5 minutes, and it will show red, and then we will tip it 
over again for the other 5 minutes. But, again, if you try to 
stay as close to the original 5, that will be helpful. We will 
start with you, Mr. Day, and then to Mr. Burrus, then Captain 
Martinez, and then we will go to Dr. Hadler and Mr. Layne. All 
right.

  STATEMENTS OF THOMAS G. DAY, VICE PRESIDENT OF ENGINEERING, 
U.S. POSTAL SERVICE; WILLIAM BURRUS, PRESIDENT, AMERICAN POSTAL 
WORKERS UNION; KENNETH MARTINEZ, ENGINEER, CENTERS FOR DISEASE 
CONTROL, ACCOMPANIED BY BRADLEY PERKINS; JAMES L. HADLER, STATE 
   EPIDEMIOLOGIST, STATE OF CONNECTICUT DEPARTMENT OF PUBLIC 
    HEALTH; AND R. DAVIS LAYNE, DEPUTY ASSISTANT SECRETARY, 
         OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION

    Mr. Day. Thank you, Mr. Chairman and members of the 
subcommittee. My name is Thomas Day, and I'm the vice president 
of engineering for the U.S. Postal Service.
    Generally my job involves the development of internal 
processes policies and equipment that make the Postal Service 
move the Nation's mail more efficiently, effectively and as 
quickly as possible. However, over the last year and a half, a 
major part of my duty has been responding to the anthrax 
attacks of 2001 and improving our system defenses to minimize 
the effects of any future attacks. I appreciate this 
opportunity to speak to you today about the Postal Service's 
progress in addressing this unforeseen situation.
    Tragically, the mail was the vehicle for a terrorist attack 
on our Nation. It required a massive and coordinated response 
by the Postal Service, a response that was successful only with 
the help and support of so many others from all levels of 
government and the private sector. Unfortunately for all of us, 
information available at the time was simply inadequate to 
serve as a reliable road map through uncharted territory. But 
we must recognize that while the Nation's mail system was 
selected to deliver anthrax in 2001, there are many other 
agents that can be delivered in other ways. Bioterrorism is not 
just a Postal Service issue.
    Considering my experience over the last year and a half, if 
there's a theme to my remarks, it would be lessons learned. 
After the anthrax attacks of October 2001, our primary goal 
then, as now, was protecting the safety of our employees and 
customers. At the national level we saw the need to test and 
monitor our major mail processing facilities to detect 
potential employee exposure and limit the possibility of cross-
contamination. We worked quickly to test more than 100 of these 
facilities.
    While the anthrax crisis affected the Postal Service in 
many locations throughout the Nation, I will focus on the three 
phases of the situation in Connecticut.
    The first phase began in October 2001 in response to 
potential presence of anthrax throughout the Postal Service 
network. As was happening throughout the Nation, the 
Connecticut district manager activated a crisis command center. 
Activities included an employee safeguard program to provide 
clear, consistent and accurate communications to employees 
through a single reliable channel, including employee town hall 
meetings to discuss facility testing. There were also daily 
communication links with union and management association 
leadership, which provided a feedback channel for employee and 
union concerns.
    Initially it did not appear there were any problems in 
Connecticut. By late November, however, we learned that a 
Connecticut resident was thought to have inhalational anthrax. 
Mail was suspected as the possible cause. This was to be the 
beginning of phase 2 of our experience.
    Mail received at the victim's home in Oxford would have 
passed through our Southern Connecticut Processing and 
Distribution Center in Wallingford. We immediately began 
testing at the Wallingford facility and informing employees of 
the situation and providing them antibiotics. When testing 
found the anthrax contamination on four pieces of automated 
mail sorting equipment, these machines were immediately taken 
out of service, the areas isolated and cordoned off.
    The report triggered a coordinated multiagency response 
that included additional testing, decontamination, continued 
medical prophylaxis of employees and extensive employee 
communication activities. Employee unions were briefed on the 
sampling result and decontamination plans. The plant manager, 
the medical officer, and union official held town meetings with 
employees to discuss the result.
    The Connecticut Department of Health, the Centers for 
Disease Control, the U.S. Army Corps of Engineers and the U.S. 
Environmental Protection Agency worked directly with Postal 
Service headquarters Incident Command Center and the 
Connecticut Crisis Command Center to formulate the 
decontamination strategy for the equipment. Throughout the 
decontamination process we were advised there was no additional 
health risk to our employees.
    Let me touch on the issue of sampling for a moment, because 
it was and remains a complex and evolving process.
    Postal Service contractors had used a dry swab sampling 
because this technique was recommended by the Nation's public 
health laboratories. These laboratories were performing the 
analysis and felt this was the best sample collection means 
available to maximize laboratory resources. In subsequent 
rounds of tests conducted by the CDC at Wallingford, they used 
a number of sampling protocols, including wet wipes and a newly 
developed HEPA filter vacuum process. At the time there was no 
single standard for testing. Today the value of these new 
sampling methods is widely recognized and is a part of our 
sampling protocol.
    The third phase of the anthrax situation began in February 
2002 when union leaders at the processing center requested a 
general cleanup that would include the high bay area. Local 
management acted prudently and decided first to conduct testing 
of the high bay area. Their concern was that without testing 
the presence of anthrax, cleaning could dislodge anthrax spores 
that might be present. Working with public health and 
environmental agencies, consensus testing protocols were 
developed, and a high bay sampling was conducted, an operation 
that was conducted during a point where they reduced operations 
to 12 hours that day.
    After learning that the tests were positive for the 
presence of anthrax, both CDC and the Connecticut DPH indicated 
that no medical intervention was necessary because of the 
length of time since the suspected cross-contaminated letter 
passed through facility, and the fact that no employee had 
become ill.
    Like so much that occurred during the anthrax crisis, 
actual decontamination of the high bay had no precedent. The 
process was uniquely shaped by the interagency guidance of OSHA 
CDC, EPA and the Connecticut DPH.
    We recognize that questions have been raised about the 
Postal Service's decision in connection with the events at the 
Wallingford facility. We believe that the GAO has provided the 
proper context by describing them as understandable given the 
challenging circumstances of the time, the advice received from 
public health officials, and ongoing criminal investigation and 
the uncertainties about sampling methods.
    There are always opportunities for improvement in our 
future communications efforts regarding anthrax or other 
biohazards. I assure you that our focus will remain on 
providing complete and accurate information to our employees as 
promptly as possible regarding any situation that may affect 
their health and safety.
    We also believe that explanation of any test result should 
continue to be handled in conjunction with the appropriate 
local health care experts. The subcommittee asked that I 
specifically address the terms ``validated'' and ``confirmed'' 
as they appeared in our anthrax guidelines. Validation involves 
three distinct activities in connection with our sampling 
activities: First, verification that the samples were taken; 
second, logging the samples under chain-of-custody procedures; 
and finally, verification the samples were taken according to 
established laboratory protocols, including adherence to 
quality assurance and quality control.
    The confirmed sample was a culture sample for which we 
received a final written report from the laboratory that the 
sample, based on quality assurance and quality control 
determinations, was either positive or negative for the 
presence of Bacillus anthracis.
    We recognize these terms have resulted in some confusion, 
and as a result they will be eliminated in this context. 
However, we will retain robust quality assurance and control 
procedures to ensure we have the same level of accuracy and 
reliability for all future sampling and testing.
    The Postal Service must also consider what lessons learned 
could mean for the future. This is addressed in our 
comprehensive emergency preparedness plan that was submitted to 
Congress on March 6, 2002 and was updated this past month. 
There are four basic strategies in the plan: detection, 
containment, neutralization and deterrence. Since June 2002, 
we've been testing bio detection infiltration equipment for use 
at our automated mail processing centers. We have carefully 
reviewed the results and are now confident that our biohazard 
detection system is working successfully.
    We've also evaluated a ventilation filtration system at a 
number of our processing centers. This provides the opportunity 
to contain potential biohazards in the mail as it moves through 
our processing operations.
    There's one other issue I'd like to raise: indemnification. 
Working with the Department of Homeland Security on this issue, 
the indemnification of contractors has been a significant 
obstacle in the cleanup of the Washington and Trenton 
facilities as well as the purchase of the biohazard detection 
equipment. Some potential suppliers have been unwilling to 
offer essential products and services unless they are 
indemnified against claims arising out of acts of terrorism.
    As I mentioned earlier, the anthrax attacks of 2001 
happened to the U.S. Postal Service as the vehicle of the 
attack. There is no reason to believe that another bioterrorist 
would choose the same delivery vehicle or the same biohazard. 
Bioterrorism is not just a Postal Service issue. It is one that 
requires a strong and coordinated national response.
    Perhaps the most valuable lesson I have learned through my 
experience with this issue is that deterrence is infinitely 
preferable to acting after a system has been breached. No one, 
certainly not our employees or our customers, should be forced 
to pay so high a price.
    Thank you, Mr. Chairman. I'll be happy to answer your 
questions.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Day follows:]

    [GRAPHIC] [TIFF OMITTED] T9545.049
    
    [GRAPHIC] [TIFF OMITTED] T9545.050
    
    [GRAPHIC] [TIFF OMITTED] T9545.051
    
    [GRAPHIC] [TIFF OMITTED] T9545.052
    
    [GRAPHIC] [TIFF OMITTED] T9545.053
    
    [GRAPHIC] [TIFF OMITTED] T9545.054
    
    [GRAPHIC] [TIFF OMITTED] T9545.055
    
    [GRAPHIC] [TIFF OMITTED] T9545.056
    
    [GRAPHIC] [TIFF OMITTED] T9545.057
    
    [GRAPHIC] [TIFF OMITTED] T9545.058
    
    [GRAPHIC] [TIFF OMITTED] T9545.059
    
    [GRAPHIC] [TIFF OMITTED] T9545.060
    
    [GRAPHIC] [TIFF OMITTED] T9545.061
    
    [GRAPHIC] [TIFF OMITTED] T9545.062
    
    [GRAPHIC] [TIFF OMITTED] T9545.063
    
    [GRAPHIC] [TIFF OMITTED] T9545.064
    
    [GRAPHIC] [TIFF OMITTED] T9545.065
    
    [GRAPHIC] [TIFF OMITTED] T9545.066
    
    [GRAPHIC] [TIFF OMITTED] T9545.067
    
    [GRAPHIC] [TIFF OMITTED] T9545.068
    
    Mr. Shays. Mr. Burrus.
    Mr. Burrus. Good afternoon. I want to thank subcommittee 
Chairman Christopher Shays, Ranking Member Dennis Kucinich and 
all the committee members for the opportunity to address this 
most important issue. I am accompanied today by John Dirzius, 
the president of the Greater Connecticut Area local 
representing over 100 offices in central Connecticut, including 
the Wallingford facility. My testimony today will concentrate 
on the events and issues surrounding the anthrax contamination 
of the Southern Connecticut Mail Processing and Distribution 
Center located in Wallingford.
    When the anthrax crisis arose in October 2001, the 
terrorist attacks of September 11 were still vivid in our 
minds, and the national psyche was wounded. The mail had been 
used to transmit deadly anthrax, and two Brentwood postal 
workers were victims in late October. Other postal workers from 
Brentwood and Hamilton Township, NJ, were hospitalized with 
life-threatening infections. Thousands of workers were 
prescribed medication as a precaution. Postal workers were 
especially concerned, but, despite their fears, continued to 
work, serving our Nation with courage and dignity.
    At the outset of the anthrax crisis, the Postal Service and 
the postal unions embarked on a cooperative effort to cope with 
the crisis, evaluate progress and facilitate communications at 
the national level. Members of the task force met almost daily, 
exchanging information and discussing options, and through most 
of this crisis, the course of action worked quite well. 
Unfortunately, the same level of cooperation did not exist at 
the local level in every instance. It certainly did not exist 
in Connecticut.
    Shortly after the Brentwood deaths, the Wallingford 
facility, along with more than 250 other postal facilities, 
were tested for anthrax contamination using the swab sampling 
method. The results were negative at the majority of facilities 
tested nationwide, including in Wallingford. But when Mrs. 
Lundgren, a 94-year-old widow who lived in nearby Oxford, died 
of inhalation anthrax, contaminated mail was suspected. Fear 
gripped postal workers and nearby residents.
    Three rounds of additional tests were conducted using 
variations of the swab method, and each produced a negative 
result, and finally, when the more sophisticated HEPA vacuum 
sampling was utilized, anthrax was detected. The presence of 
anthrax was described as being in trace amounts.
    The situation at the Wallingford facility was reported at 
the national task force meetings, but the exchange of 
information, as we have subsequently learned, was incomplete. 
Quantitative results were not presented to the task force 
members. The failure by the Postal Service and State health 
department officials to provide important information was 
revealed in early January 2002 when a local APWU representative 
was verbally informed by a CDC official that contamination was 
significantly higher than had been reported to the union and to 
the employees. This was later confirmed in an e-mail the union 
had obtained through a Freedom of Information request made in 
April 2002, received in 2003. The December 2001 e-mail from the 
CDC official Larry Cseh says, ``This is to discuss the findings 
of my sample from Wallingford P&D that is the highest ever 
collected at post offices.''
    There's been considerable disagreement regarding the level 
of contamination in the Connecticut facility. Test results put 
the number of spores found at approximately 3 million. While 
the significance of this figure has been hotly debated, clearly 
there was more than trace contamination, and, without question, 
there was sufficient contamination to cause death.
    This raises a tough probing question. When do authorities 
have a duty to inform employees of threats to their safety and 
health? The evidence is clear that discussions were held among 
various agencies, including the Postal Service, the Centers for 
Disease Control and the Connecticut Department of Health 
regarding who would assume responsibility for notifying 
employees.
    A GAO report issued in April 2003 went to great lengths to 
analyze documents that set forth responsibilities of the 
agencies involved. The report notes that the Postal Service 
requested and the investigation team agreed that the Postal 
Service would be the sole party responsible for communicating 
test results and other information to the workers at the 
facility. Yet the Postal Service failed to notify the employees 
and the union of the quantitative sample results. This failure 
to report the results was compounded by the failure to properly 
respond to a January 2002 request from local union presidents 
for documents detailing exposure. When it became clear that 
repeated union requests for exposure data was not being 
honored, the union petitioned OSHA to enforce the standard that 
requires employers to provide such data within 15 days of the 
request. OSHA failed to enforce its standard. It declined to 
issue a citation to the Postal Service, and the requested 
information was not provided for a period of a full 9 months 
after the initial union request.
    The record, of course, also shows that while the requests 
were being made and denied, the Postal Service knew the 
results, CDC knew the results, and the Connecticut Department 
of Health knew the results. Those most directly concerned, the 
employees, did not know. Employees were not informed despite 
repeated requests for information by the local union. Yet the 
GAO concludes that given the circumstances, the failure to 
report the result is understandable.
    We vehemently disagree. OSHA's failure to uphold its 
standard to protect workers and the Postal Service's continued 
refusal to provide anthrax exposure data is simply inexcusable. 
Nowhere in the Code of Federal Regulations for OSHA is there an 
exception. No matter how one interprets the regulations, 
employees were denied the fundamental right to make informed 
decisions regarding their safety and health. It is abundantly 
clear that postal workers in the Wallingford facility were 
denied the right to protect themselves from dangers in the 
workplace.
    We feel it is far too easy to say, we learned our lesson, 
it will not happen again. Postal employees worked in the 
facilities that tested positive for anthrax, a toxin presumed 
by the medical community to be capable of causing death even 
when present in only minute amounts. Medical treatment that was 
offered as a protection was provided under false pretences. 
Postal workers are wary, and they should be. No one has been 
held accountable, and this failure is, in GAO's interpretation, 
understandable.
    Let me say a word about the present effort to provide 
detection equipment. This equipment will go on specified postal 
equipment, not all of the equipment. The pieces of mail that 
the Postal Service handles daily does not go directly in the 
collection box or the customer to the letter carrier. It is 
commingled in postal facilities throughout this country. Over 
50 percent of that mail bypasses the Postal Service system and 
goes directly to the carrier delivery station. It would be 
possible--there are over 200 private consolidation plants in 
existence in this country processing American's mail. They hire 
low-wage workers without background checks. It's very possible 
for a terrorist to be hired by one of these companies. That 
mail would never come through a postal facility that has 
biodetection equipment. It will go directly to the letter 
carrier, to the bag, to the American customer, to the American 
citizens.
    Let me discuss for a moment a pattern of failure. We begin 
with the swab versus the HEPA system testing. We go to use of 
the word ``trace contamination.'' Despite the union's two-
decade-old effort to have the stoppage of the use of compressed 
air, of blowing postal equipment, we go from the use of 
compressed air to the vacuum system of cleaning postal 
equipment. We continued with the dispensation of Cipro as a 
means of protecting employees without a comprehensive study of 
the long-term effect on individuals who were not suffering any 
illness, and to date there's no medical documentation of the 
long-term effect on the thousands of postal employees and other 
Federal workers as well who took Cipro for extended periods of 
time. And many employees rejected the use of Cipro because they 
were informed by their employer, notably the U.S. Postal 
Service, that there were trace amounts, so employees were 
endangered unnecessarily because they received misleading 
information.
    Mr. Chairman, members of the committee, I respectfully 
submit that the events surrounding the Wallingford anthrax 
contamination are not understandable, not to me and not to the 
workers I represent.
    Thank you for the opportunity to testify before your 
committee. I will be happy to answer any questions you may 
have.
    Mr. Shays. Thank you Mr. Burrus.
    [The prepared statement of Mr. Burrus follows:]

    [GRAPHIC] [TIFF OMITTED] T9545.069
    
    [GRAPHIC] [TIFF OMITTED] T9545.070
    
    [GRAPHIC] [TIFF OMITTED] T9545.071
    
    [GRAPHIC] [TIFF OMITTED] T9545.072
    
    [GRAPHIC] [TIFF OMITTED] T9545.073
    
    Mr. Shays. Let me just say to you, the Members here, Ms. 
DeLauro, myself, Mr. Janklow, they are not understood by us as 
well, and we see no excuse for what you have to encounter, what 
your workers had to encounter, your members.
    Captain Martinez.
    Captain Martinez. Good afternoon, Mr. Chairman and members 
of the subcommittee. I'm Captain Kenneth Martinez, Supervisory 
Industrial Hygienist for the National Institute for 
Occupational Safety and Health with the Centers for Disease 
Control and Prevention. With me is Dr. Bradley Perkins, Acting 
Associate Director for Bioterrorism in the Division of 
Bacterial and Microtic Diseases at the CDC's National Center 
for Infectious Diseases, on behalf of CDC and the Agency for 
Toxic Substances and Disease Registry.
    I'm pleased to describe our role in anthrax detection and 
remediation in the fall of 2001, and particularly CDC's work at 
the Wallingford Connecticut postal facility.
    I would note although both Dr. Perkins and I have knowledge 
and expertise in the subject of this hearing, we were not 
specifically assigned to the Wallingford investigation.
    An important part of CDC's role during the anthrax attacks 
of 2001 was an environmental testing of facilities potentially 
contaminated with anthrax. We performed this work at the 
request of the State or local health Department. CDC's sample 
collection experts and microbiological analysis experts worked 
in consultation with experts from the military and elsewhere.
    Environmental sampling was useful in several ways. It 
helped to identify the likely source of the infection. It 
helped us to understand environmental exposure pathways and the 
potential for subtle anthrax spores to become airborne again, 
and it helped guide decisions about cleaning and reoccupancy.
    Before the anthrax events of the fall of 2001, standard 
procedures for environmental sampling for Bacillus anthracis 
did not exist. At the beginning, we identified existing 
sampling methods that could be used or adapted, such as the 
allergy swab method used for sampling allergen exposures. This 
became a new sampling technique known has HEPA vacuum sampling, 
which proved a useful tool to sample for anthrax exposures over 
large surface areas and complex machine surfaces.
    As our investigation proceeded, we continually refined and 
improved our methods and procedures based on our accumulating 
experience. Once our primary mission response was complete, CDC 
worked in partnership with U.S. Postal Service and USPS 
contractors at various affected postal facility sites to 
conduct comparative studies to evaluate the strengths and the 
limitations of various sample collection and analysis 
techniques.
    CDC does not yet know the minimum concentration of anthrax 
spores that can be detected through existing methods. In an 
effort to further improve our sampling and analytical ability, 
CDC has research under way with the Army's Dugway Proving 
Grounds to clarify sensitivity and analytical methods for 
Bacillus anthracis and other biological agents.
    In interpreting the results of environmental sampling, 
there are many factors that need to be taken into account. One 
factor is the purpose of the sampling, whether, for instance, 
it is for screening, for targeting, characterization or 
verification. Another consideration is that different sampling 
methods, whether swabs wipes or HEPA vacuum, may be best for 
different types of application, and a combination of these 
methods is often needed.
    The first samples collected in the anthrax investigation 
were only determined to be positive or negative. Later it 
became possible to roughly quantify results, but such findings 
still had limitations in their accuracy. Finally, although the 
level of anthrax spores in the air is the finding most relevant 
to risk, it is very difficult to find positive air samples once 
a facility is closed and ventilation has been turned off. 
Therefore, surface sampling was most heavily relied upon during 
the anthrax investigation.
    Two patterns of sampling results were the most indicative 
of possible aerosolization, contamination of surfaces such as 
air ducts and rafters and the dispersion pattern of multiple 
positive samples. At the same time it is important to note that 
surface sampling points to evidence of contamination, but not 
necessarily evidence of exposure or risk. Engineering 
information or work practice information are both important in 
understanding the potential for human exposure, whether, for 
instance, a particular machine surface has likely potential for 
worker contact and whether compressed air is used for cleaning.
    After inhalation was diagnosed in the 94-year-old woman 
from Oxford, CT, the CDC deployed an investigative team at the 
request of the Connecticut Department of Health. The 
investigation focused on mail as the source of the anthrax, and 
efforts were undertaken to detect Bacillus anthracis at the 
Wallingford postal facility.
    On November 25, 2001, CDC investigators collected 
environmental samples at the Wallingford facility using wet 
swabs, and all samples which were analyzed by the Connecticut 
Department of Health were found negative. Two earlier rounds of 
dry swab sampling conducted by the USPS had also found negative 
results. Although those early results were negative, 
postexposure prophylaxis was recommended for Wallingford 
employees, and over 9,000 of the 1,122 workers were given 
antibiotics.
    On November 28, CDC conducted targeted sampling, including 
the use of wet wipe and HEPA vacuum sampling on a machine used 
primarily to process bulk mail because 80 percent of the mail 
received at the patient's home was bulk mail. Positive Bacillus 
anthracis cultures were confirmed from four bar code sorting 
machines on this fourth round of sampling, and the affected 
machines were taken out of service.
    A fifth round of sampling was done on December 2, also by 
CDC, to examine the extent of contamination on the machines, 
and the results confirmed extensive contamination for machine 
No. 10.
    As a result, these sampling two rounds were finalized by 
the laboratory, they were reported directly to the Connecticut 
Department of Health and shared with CDC and USPS so that 
public health steps, isolation of the affected equipment, town 
hall meetings and extension of antibiotic treatment for workers 
to 60 days could be immediately taken. The actions to protect 
the workers were the same regardless of whether the reporting 
results were qualitative or quantitative.
    Following the assessment component of the investigation, 
CDC provided technical assistance to the USPS on appropriate 
methods for decontaminating the machines and verifying the 
efficacy of cleanup. All samples were found to be negative, and 
the machines were returned to service. Similar assistance was 
provided in April 2002 when positive results were found in the 
high bay areas of the facility.
    The CDC investigation was instrumental in demonstrating a 
possible source for the infection in the case of inhalational 
anthrax in Connecticut. Our investigation showed that extensive 
sampling was needed and epidemiological investigation essential 
in identifying sites for sampling. None of the dry or wet swabs 
was positive, but positive results were obtained through wet 
wipes and HEPA vacuuming. Therefore, for future investigation 
of large facilities, we recommend that these two methods be 
included.
    As mentioned, CDC has research under way with the Army to 
clarify the sensitivity of sampling and analysis methods for 
Bacillus anthracis, as well as for other biological agents. As 
we update our guidelines for anthrax response in the event that 
future investigations are needed, we will consider the lessons 
learned from Wallingford and the findings of our continuing 
research to assure that the most effective sampling is 
conducted and that the findings and interpretations of findings 
are properly communicated to all infected parties.
    Thank you for this opportunity to testify, and I would be 
pleased to answer any questions.
    Mr. Shays. Thank you, Captain Martinez.
    [The prepared statement of Captain Martinez follows:]

    [GRAPHIC] [TIFF OMITTED] T9545.074
    
    [GRAPHIC] [TIFF OMITTED] T9545.075
    
    [GRAPHIC] [TIFF OMITTED] T9545.076
    
    [GRAPHIC] [TIFF OMITTED] T9545.077
    
    [GRAPHIC] [TIFF OMITTED] T9545.078
    
    [GRAPHIC] [TIFF OMITTED] T9545.079
    
    [GRAPHIC] [TIFF OMITTED] T9545.080
    
    [GRAPHIC] [TIFF OMITTED] T9545.081
    
    [GRAPHIC] [TIFF OMITTED] T9545.082
    
    [GRAPHIC] [TIFF OMITTED] T9545.083
    
    [GRAPHIC] [TIFF OMITTED] T9545.084
    
    [GRAPHIC] [TIFF OMITTED] T9545.085
    
    [GRAPHIC] [TIFF OMITTED] T9545.086
    
    [GRAPHIC] [TIFF OMITTED] T9545.087
    
    Mr. Shays. We'll now go to Dr. Hadler.
    Dr. Hadler. I should speak into the silver mic; is that 
correct?
    Mr. Shays. Yes, that's right.
    Dr. Hadler. Good afternoon, Mr. Chairman and members of the 
subcommittee. Thank you for the opportunity to describe the 
investigation of the inhalation anthrax case in Connecticut, 
the subsequent identification of anthrax in the Wallingford 
postal facility, and lessons learned as they relate to 
sampling.
    I have been director of the infectious diseases division 
and State epidemiologist at the Connecticut Department of 
Public Health for the past 19 years. I'm a physician trained in 
internal medicine and infectious disease and public health.
    Mr. Shays. You need to talk a little louder, and you don't 
have to face us. You can face forward, which your voice will 
carry the mic.
    Dr. Hadler. OK.
    Mr. Shays. Thank you.
    Dr. Hadler. I was the lead Connecticut investigator sharing 
responsibility of the overall investigation with several 
colleagues that the CDC assigned, one onsite and one in 
Atlanta. The investigation unit included staff from the CDC, 
Department of Public Health, several local health departments, 
and liaison staff from the FBI and USPS Connecticut.
    As co-lead investigator with the CDC team leaders, I 
directed the meetings of the investigation unit, provided 
support staff for the investigation, communicated important 
information to the Commission of Public Health and Governor----
    Mr. Shays. A little louder, please.
    Dr. Hadler [continuing]. And met with Connecticut-based 
U.S. Postal Service officials at their request to interpret 
findings from the investigation and explain the rationale for 
public health recommendations relating to them.
    In considering what we learned in Connecticut about 
sampling a postal facility for contamination with anthrax 
spores, it's important to know the context in which sampling 
was done and which results were interpreted.
    We began our investigation only knowing that an elderly 
woman located far off the beaten track in Connecticut had 
developed anthrax more than a month after the last known 
intentionally contaminated letters had been mailed. Our main 
objective was to determine how she had been exposed and to 
assure that anyone who might have been coexposed was quickly 
identified and given an opportunity to take antibiotic 
preventive treatment. The Wallingford postal distribution 
facility was only one of a number of sites where we 
investigated to determine whether anyone else had developed 
anthrax and where environmental sampling for anthrax spores 
took place.
    We quickly established several important points, but turned 
our attention to the Wallingford postal facility. Our case had 
a very limited lifestyle that made it most likely she was 
exposed to anthrax in her home. She had not received any 
suspicious mail such as that addressed to Senators Daschle and 
Leahy.
    Despite repeated and progressively more aggressive 
sampling, we could not find spores in her home. Her strain of 
anthrax, however, was the same as that in the other 
bioterrorism-associated cases of anthrax.
    Finally, although unrelated to her exposure, we found a 
letter in Connecticut that had been cross-contaminated with 
anthrax while passing through the Trenton, NJ, postal 
distribution center and which still had spores adhering to it 
when found in the home to which it was mailed. This confirmed 
that one could be exposed to cross-contaminated mail in the 
home. Thus, our leading hypothesis to explain all these 
findings became that she was exposed from a low dose of anthrax 
that was released into her breathing space from cross-
contaminated mail when she opened it or disposed of it at home.
    To support this hypothesis, we needed to find evidence that 
cross-contaminated mail had passed through the Wallingford 
postal distribution facility. Our efforts became increasingly 
more focused on mail-sorting machines and on thoroughly 
sampling all 13 of them, not just the one that did the final 
sort of mail for her postal route.
    We had no other reason to continue testing. We had found no 
case of anthrax in postal workers in Wallingford. None of the 
nasal swabs we took were positive from all 500 postal works, 
and all of the 177 samples taken during 3 initial rounds of 
sampling had been negative. This is in stark contrast to 
Brentwood and Trenton, NJ, where about 40 to 50 percent of 
initial specimens were found to be positive.
    Ultimately after taking an average of 10 samples from each 
of 13 mail-sorting machines, we found spores on 4 of them. 
Further testing of these machines showed that one of them was 
heavily contaminated by two standards. First, nearly 70 percent 
of all samples taken from it were positive. None of the other 
contaminated machines had more than 6 percent of samples 
positive.
    Second, an estimated 3 million spores were found in 1 
vacuum sample. No other positive sample had more than 370 
spores in it. From an investigative perspective, these findings 
suggested that the Connecticut case of anthrax had been exposed 
via cross-contaminated mail, mail that had been contaminated by 
the heavily contaminated machine as it passed through it.
    From a risk perspective, we interpreted the positive 
findings as described in detail in the written testimony. The 
real issue is that one mail sorting machine was still heavily 
contaminated with anthrax approximately 6 weeks after it was 
likely originally contaminated, but did this mean that there 
had been an ongoing risk of exposure to employees? We thought 
not.
    We knew that the risk of inhalation anthrax would have been 
greatest when spores initially entered the postal facility and 
when they might have been airborne in the form of a plume. We 
also knew that no one had developed anthrax despite a month 
passing from the time spores were introduced to when 
antibiotics were offered. In addition, there was no evidence 
that there had been widespread contamination based on the 
initial broad-based sampling efforts in the facility. Further, 
we knew that many other postal facilities nationwide likely had 
a similar level of contamination.
    Mr. Shays. Can you hold--suspend for just a second? I'm 
going to ask you to just talk a little louder. The mics for 
some reason are not as loud as they have been in the past. So 
it's pretty--the black one is C-SPAN, so it's not going the 
amplify it. It's the silver one.
    Dr. Hadler. Is this one on?
    Mr. Shays. It's on, but it's not loud.
    Dr. Hadler. OK. Just to continue, further, we knew that 
many other postal facilities nationwide likely had a similar 
level of contamination that was unrecognized, and that no one 
working in these other postal facilities had developed 
inhalation anthrax. From a theoretical perspective, no matter 
how many spores were found, as long as they were not airborne, 
they did not pose an immediate risk to anyone.
    Finally, the Wallingford facility had not used cleaning 
procedures that might aerosolize fatal spores for more than a 
month; thus, we felt that there was no added risk to workers 
from finding high quantitative levels of spores on one machine 
compared to finding any spores.
    Thus, the advice given to the U.S. Postal Service was that 
the only public health actions necessary to protect worker 
physical health were, first, to continue antibiotics on all 
workers for a full 60 days with an emphasis on those who worked 
around the contaminated mail-sorting machines; second, to 
immediately stop using the machines that tested positive for 
anthrax and disinfect them; and three, to continue with 
cleaning methods elsewhere in the facility that would not 
aerosolize spores that might still be present that had not been 
picked up by sampling.
    But before completing my testimony, I'd like to go over 
what I think are the main lessons to be learned from our 
experience as they relate to sampling. There are four of them.
    First, it's possible to have substantial localized cross-
contamination of a postal facility with no human cases of 
anthrax. The Wallingford postal facility was probably the most 
thoroughly studied postal distribution center where there were 
no human cases of anthrax. In the future, if something like 
this were to happen again, I think we need to ask ourselves if 
there are no human cases occurring in the first 1 to 2 weeks 
after an attack, is it necessary, or at least how necessary is 
it, to be concerned about additional cases occurring without 
additional mailings? We can never fully guarantee that there 
are no anthrax spores present in a postal facility, so we also 
have to use our human observational information in addition to 
the environmental sampling information to put things in 
perspective.
    Second lesson: In any sampling initiative the objectives of 
sampling need to be clear and the methods tied to them. If the 
objective of sampling is to find any spores, if they're there, 
as it was in Wallingford, it's critical to use sensitive 
collection methods, to sample where the spores are most likely 
to be and to take enough samples. On this note, I think as 
others have noted, the initial methods used to sample postal 
distribution centers around the country were very insensitive 
with respect to finding any contamination. They were really 
only potentially useful to determine if a leaky letter packed 
with spores had gone through them.
    Third lesson: If we were to get another mailing like the 
one in 2001, we need to understand that the risk to postal 
workers will be highest initially and rapidly diminished even 
without preventive treatment with antibiotics. It also appears 
that the main threat once spores settle will be from 
reaerosolization. Ideally, to prevent reaerosolization, we need 
to continue to avoid using compressed air to blow dust out of 
machines, and we need to continue to avoid using vacuums that 
are not equipped with HEPA filters.
    Finally, in my opinion, if we want to proactively monitor 
postal facilities for the introduction of an anthrax-containing 
letter, we need to realistically define our objectives and 
methods. In my opinion, it may only be feasible to do crude 
monitoring of air around sorting machines to try to pick up 
letters like the Daschle and Leahy one. Actually, not surface 
samples; we're interested in picking them up while they're 
still a risk, while the spores are in the air. With luck, we 
might find spores a day or two before the first postal worker 
develops anthrax if there are enough spores to potentially 
expose postal workers to anthrax.
    This concludes my oral testimony. Thank you again for the 
opportunity.
    [The prepared statement of Dr. Hadler follows:]

    [GRAPHIC] [TIFF OMITTED] T9545.088
    
    [GRAPHIC] [TIFF OMITTED] T9545.089
    
    [GRAPHIC] [TIFF OMITTED] T9545.090
    
    [GRAPHIC] [TIFF OMITTED] T9545.091
    
    [GRAPHIC] [TIFF OMITTED] T9545.092
    
    [GRAPHIC] [TIFF OMITTED] T9545.093
    
    [GRAPHIC] [TIFF OMITTED] T9545.094
    
    [GRAPHIC] [TIFF OMITTED] T9545.095
    
    [GRAPHIC] [TIFF OMITTED] T9545.096
    
    [GRAPHIC] [TIFF OMITTED] T9545.097
    
    [GRAPHIC] [TIFF OMITTED] T9545.098
    
    [GRAPHIC] [TIFF OMITTED] T9545.099
    
    [GRAPHIC] [TIFF OMITTED] T9545.100
    
    [GRAPHIC] [TIFF OMITTED] T9545.101
    
    [GRAPHIC] [TIFF OMITTED] T9545.102
    
    [GRAPHIC] [TIFF OMITTED] T9545.103
    
    [GRAPHIC] [TIFF OMITTED] T9545.104
    
    Mr. Shays. I am amazed that three of our witnesses have 
finished 10 minutes to practically the second and with very 
good testimony, I might add.
    Mr. Layne, you will finish up, and then we'll have you get 
our questions.
    Mr. Layne. Yes, Mr. Chairman. I have a shorter summary of 
my written statement for you.
    Mr. Shays. Thank you.
    Mr. Layne. Mr. Chairman, members of the subcommittee, I'm 
Davis Layne. I'm the Deputy Assistant Secretary for the 
Occupational Safety and Health Administration.
    Mr. Shays. Lift that mic up a little higher, I'm sorry.
    Mr. Layne. Thank you for this opportunity to testify about 
the Occupational Safety and Health Administration's role in 
dealing with anthrax at a U.S. postal facility, and about the 
lessons learned from anthrax contamination, and about the 
detection and remediation at the Wallingford, CT, postal 
facility.
    Also here today with me is Rich Fairfax, who is the 
Director of OSHA's enforcement programs.
    The Occupational Safety and Health Act requires that each 
employer furnish to each of his employees conditions of 
employment and a place of employment that are free from 
recognized hazards that are causing or likely to cause death or 
serious physical harm. A 1998 revision to the OSHA Act expanded 
the definition of ``employer'' to include the U.S. Postal 
Service. Since 1998, the OSHA Act has applied to the U.S. 
Postal Service in the same manner as it does to any other 
employer.
    After post offices were discovered to be contaminated by 
anthrax in the mail, OSHA worked with the Post Offices' United 
Command Center throughout the anthrax crisis. We provided 
technical assistance with sampling and decontamination of the 
Brentwood facility in Washington, DC, and another facility in 
Trenton, NJ. Because of this involvement in April 2002, the 
Postal Service asked OSHA to become involved in sampling and 
decontamination of the high bay areas of the Wallingford 
facility.
    At the Post Office's request, OSHA provided staff and 
information to a U.S. Post Office contractor with technical 
advice on sampling for anthrax exposure in the high bay areas. 
On May 29, 2002, the American Postal Workers Union filed a 
formal complaint with OSHA's Bridgeport area office alleging 
that the Postal Service in Wallingford was not complying with 
the requirements of 29 CFR 1910.1020, which is access to 
employee exposure and medical records; and then on May 31, 
2002, the union filed a second complaint against the Postal 
Service alleging that inadequate hazard assessment in violation 
of 29 CFR 1910.132, which is personal protective equipment.
    Then on June 5, 2002, in response to these complaints, 
OSHA's Bridgeport area office initiated an inspection of the 
Wallingford facility. Following the inspection on October 7, 
2002, OSHA sent a letter to the Postal Service. In that letter 
it said, although a citation was not warranted, the Postal 
Service's failure to effectively communicate with its employees 
requires attention. OSHA typically sends this type of letter 
when an inspection discloses safety or health deficiencies that 
will not be cited.
    Subsequent to the events at Wallingford, OSHA has taken a 
number of actions to help protect worker safety and health. 
OSHA participated in the development of the National Response 
Team's document ``Technical Assistance for Anthrax Response,'' 
which provides the most current information available to the 
Federal Government and shares experiences in responding to 
intentional release of anthrax spores in urban environments. 
Among other things it addresses improved methodologies that 
OSHA adopted for anthrax detection before and after cleanup, as 
well as methodologies to minimize inconsistencies related to 
sampling methods, increase the ability to validate sample 
results, and conduct comparative analysis of area samples. The 
use of these methodologies could eliminate some of the sampling 
problems experienced at Wallingford.
    In conclusion, we all know that this is a difficult time 
for our country. We as an agency have learned a lot from the 
anthrax incidents at the postal facility as well as our 
participation in the events at the World Trade Center and the 
Pentagon, and we're working diligently to ensure that any 
future response is built on lessons that we have learned as 
well as the successes we have had. In this way we can most 
effectively contribute our talents to the Nation's emergency 
preparedness and response to catastrophic events. Worker safety 
and health is a critical component of any response, recovery 
and remediation operation.
    OSHA has demonstrated that we have the technical expertise 
and organization to ensure protection of workers. However, we 
are continually looking for ways to better improve our 
performance, and I would be pleased to address any of your 
questions. Thank you.
    Mr. Janklow [presiding]. Thank you very, very much, Mr. 
Layne.
    [The prepared statement of Mr. Layne follows:]

    [GRAPHIC] [TIFF OMITTED] T9545.105
    
    [GRAPHIC] [TIFF OMITTED] T9545.106
    
    [GRAPHIC] [TIFF OMITTED] T9545.107
    
    [GRAPHIC] [TIFF OMITTED] T9545.108
    
    [GRAPHIC] [TIFF OMITTED] T9545.109
    
    [GRAPHIC] [TIFF OMITTED] T9545.110
    
    [GRAPHIC] [TIFF OMITTED] T9545.111
    
    Mr. Janklow. And the chairman has left the room for a short 
period of time. I will yield myself 10 minutes for a round of 
questioning, and I'd like to start off with you, Mr. Day, if I 
could.
    I wear trifocals, but my hindsight is 20/20. I see well 
behind me. Given history as you look back on it, would the 
Postal Service have notified the employees as to exactly what 
it is that they found, especially their representatives when 
they came forward and asked?
    Mr. Day. I think with hindsight absolutely. I think--and 
you have heard it during the testimony today, and some of the 
answers to your questions, there still is a bit of confusion 
and disagreement even about what 3.2 million colony-forming 
units really means, particularly as you try to bring it to what 
does that mean for health risks.
    I think clearly that communicating 3.2 million CFUs would 
have effectively given our employees more information that they 
needed, absolutely. We're trying to give them the best possible 
information.
    Mr. Janklow. I think the testimony I have heard people talk 
about, well, it's 8,000 to 10,000 is the threshold at which 
about it will kill half the population was the guesstimate from 
before. Then you find a machine that's got 3 million spores on 
it. None of us know the number. But if the number wasn't 
significant, if there was not a reason for withholding it, it 
probably would have been disclosed. My guess is it was concern 
about panic and a lot of other concerns about workers and the 
general public. Notwithstanding what the issue may have been, 
and if I can ask you, Mr. Layne, does not OSHA require specific 
information being given to employees once it's ascertained? 
Isn't that what OSHA requires?
    Mr. Layne. Yes. The OSHA standard under medical access to 
records, 29 CFR 1910.1020, requires that when an employee 
requests the information concerning medical monitoring data, 
that it be provided to them within 15 working days.
    Mr. Janklow. Because that wasn't done, and given the 
enormity of what was going on in the country, my State 
government shut down. Every municipal government shut down. 
Nobody wanted to handle the mail. I live in a State that's 
slightly smaller than Great Britain, and people were flying 
samples in chartered airplanes of anything that was white or 
powdery that they received in the mail to the State 
laboratories. And only God knows what the total amount of 
expense was to this Nation in terms of the activity people took 
and the panic that took place.
    Why is it that OSHA chose to make--to give a letter as 
opposed to cite the Postal Service; what is it that let them 
off the hook in this instance?
    Mr. Layne. Well, there are a number of factors. No. 1, the 
information provided to the employees initially was the raw 
data that showed that----
    Mr. Janklow. I think it said trace amount, didn't it?
    Mr. Layne. Yes. It showed it was either in positives or 
negatives, and of all the samples, it would say trace amount. 
That information was provided to employees on a timely basis. 
The question then comes to the quantitative data, and as we 
looked at the information and conducted our investigation, 
there were a number of factors that we took in consideration, 
and there was a criminal investigation that was ongoing at the 
time. We had been in the facility early.
    Mr. Janklow. Excuse me, is that the same standard you apply 
in the private sector; if there's a criminal investigation 
going on, then you kind of back off a little?
    Mr. Layne. It would be a factor we would consider in any of 
our investigations, whether it's with the Post Office or with 
another private sector employer.
    Mr. Janklow. What other--and they got to 3 million, and 
given the fact that I've never heard before that 3 million was 
a trace amount of anthrax, this is the first time I've ever 
heard this quantified as that. I spent many years--the last 
couple of years as chief executive of my own State where we 
dealt with in a lot of detail--historically we've dealt with 
anthrax. I've never heard 3 million spores ever defined as a 
trace amount.
    Yes, sir. Go ahead, Dr. Hadler.
    Dr. Hadler. If I can try to clarify at least the initial 
use of the word ``trace.'' It is important to point out that 
there was a time sequence to results coming back. The results 
from the November 28 testing, which is the first positive 
tests, and also had the sample with the----
    Mr. Janklow. The hundreds.
    Dr. Hadler [continuing]. Millions of spores first came back 
through a phone call saying that we have a few samples of the 
200 that were taken that are positive, and we asked, can you 
tell us anything more about that? They said, actually there are 
about four samples or six samples from four machines. One of 
them we're not 100 percent sure of.
    Mr. Janklow. But, Doctor, what I'm getting at----
    Dr. Hadler. They told us.
    Mr. Janklow. After the first couple of times the union was 
still asking. They were still asking for--I mean, I'm not 
complaining about 5, 6 weeks; a couple months later and they 
still aren't giving the information. As a matter of fact, they 
were not given the information until after they complained to 
OSHA about it.
    Dr. Hadler. In terms of the exact information.
    Mr. Janklow. That, I believe, complaint was filed in May, 
end of May. OSHA got it about a week later.
    Dr. Hadler. About 4 days after knowing there were a few 
cultures that were positive is when we had done additional 
sampling that showed that there were many cultures positive on 
the one machine plus the one highly concentrated sample, and 
that at that stage there were a lot of discussions, but what 
the communication was with postal workers themselves is another 
question in terms of changing that from trace to heavy 
contamination.
    Mr. Janklow. Mr. Layne, another question I have for you, 
sir. This was an emergency situation. We hadn't been through 
this before in this country. Given the situation, we have that 
kind of emergent situation behind us, so is OSHA in the process 
of requiring the disclosure of this kind of information to 
workers or their representatives and the public in an emergent 
situation?
    Mr. Layne. Yes, sir. We've received the last month the 
recommendations from----
    Mr. Janklow. From GAO.
    Mr. Layne. Report. We are in the process of, our health 
professionals and standards, a group, looking at that. Also 
we're awaiting the information from the National Response Team 
to look at that and see what's the best way to proceed.
    Also, it's important that we get information out to the 
workers as soon as possible, so it may also be that a good 
approach is to get some immediate guidance out to workers so 
that they can look at OSHA's Web site. We have a lot of 
information on our Web site dealing with anthrax, on how to 
handle it, how--what the sample results mean, and how employers 
and employees can respond to the sample results, but we're 
looking at the GAO recommendations right now.
    Mr. Janklow [presiding]. Mr. Burrus, if I could ask you 
sir, is there a satisfaction among the group that you are 
representing, the human beings that you represent, that changes 
have taken place in terms of the procedure or protocols that 
would be followed in the future were this to happen again.
    Mr. Burrus. No. No. The employees have the right to look to 
their government, their employer, and their union to respond to 
their safety needs. The employer and their government failed 
miserably.
    Mr. Janklow. Talking about the future.
    Mr. Burrus. Absolutely not. The effort to install detection 
equipment is going to be insufficient to protect the workers 
and the American public.
    Mr. Janklow. Mr. Day, I am concerned about something. You 
are talking about putting the top 100 facilities--this 
equipment in the top 100 facilities.
    Mr. Day. No, sir. They are biodetection systems and 
actually there have been several misstatements here today, 
misunderstandings about how that system works.
    Mr. Janklow. Go ahead and explain it because it is 
important we all know.
    Mr. Day. There's two fundamental parts to the system. It 
uses continuous air sampling. It is placed at the very front 
end of our automated process where on a daily basis collection 
mail--and that is deemed as the high-risk, high-threat mail--we 
handle about 115 million pieces of collection mail. It's 
brought in from individual residences, businesses, and the blue 
collection box out on the corner. This was the source of the 
attack in 2001 and that is still deemed as high risk or the 
highest of risks.
    So at the very first point in our automated system, we will 
do continuous air samplings. So to correct earlier 
misstatements, this is not about an air sampling throughout the 
building. This is a very focused, targeted sampling technique 
on the front end of our automated process. The continuous air 
sample is gathered and then turned into a liquid sample and 
then utilizes a technology called polymerase chain reaction 
that does DNA amplification. That means it can take very small 
quantities of a substance, amplify the DNA that's there, and 
then we do a specific gene sequencing unique to anthrax. Our 
test results have been exceptional both in use of surrogates--
in a live processing environment as was explained earlier, you 
cannot test live anthrax in a live processing environment.
    Mr. Janklow. One other brief question. Does this 
biodetection equipment have the ability to also look for other 
types of chemicals, biological agents, and toxins?
    Mr. Day. What this is capable of doing is screening for 
multiple biological agents. It is using DNA. When you get into 
chemicals or even biotoxins that has been processed, that all 
DNA is removed, is not capable of detecting that; that requires 
a different technology. However, the system has been designed 
in a way that as those technologies mature, they can be 
incorporated into the same system.
    Mr. Janklow. Thank you, Mr. Chairman. Thank the gentleman.
    Ms. DeLauro.
    Ms. DeLauro. Thank you, very much, Mr. Chairman. I have got 
a bunch of questions, but I think it is important just to cite 
something that Mr. Burrus said, and I think my colleague just 
mentioned this as well. OSHA knew, the Postal Service knew, the 
CDC knew, the Connecticut Health Department knew. The only 
people who did not know were the workers at this facility. I 
think, in fact, that speaks volumes and it's one of the reasons 
why we're here today.
    Mr. Day, let me ask you several questions. What was the 
reasoning behind using a Postal Service contractor to conduct 
the initial tests on the Wallingford facility rather than going 
to the experts at CDC?
    Mr. Day. The contractors we use, we used actually four of 
them nationwide as part of our nationwide environmental 
management program. We have four contractors who were capable, 
remain capable.
    Ms. DeLauro. Accredited in terms of being able to deal with 
biological agents, etc., all the accreditation that's required.
    Mr. Day. Yes.
    Ms. DeLauro. Do you think this contributed to the delayed 
finding of the anthrax contamination in utilizing--who 
recommends--well, they are attached to you, so it's a question 
of internally within the USPS that then the individual is 
assigned and that's approved--what's the process?
    Mr. Day. For the selection of these contractors?
    Ms. DeLauro. Not to go back to that, but new situation; 
anthrax, where is it going? What's it about? They had the 
accreditation, so you don't have to go to anybody else outside 
of USPS to be able to contract with any of these people.
    Mr. Day. We did need to go outside the contract, but what 
we did throughout this process is work closely with the other 
Federal agencies, principally CDC, for their best advice. It 
was agreed that these contractors were capable and we used CDC-
approved laboratories for the sampling results.
    Ms. DeLauro. So you in conjunction with CDC made a 
determination that these Postal Service contractors that you 
had could do the job; is that correct?
    Mr. Day. To be honest with you, I don't know the full 
extent of how that discussion went, but there was general 
knowledge that here are the four contractors you are using and 
here is the sampling protocol we're going to use.
    Ms. DeLauro. The reason why I asked the question is because 
they utilized for the first two tests, on the 11th and the 
21st, the dry swab methodology--first three--dry swab 
methodology. Mr. Skolnick said that the literature back to 1917 
indicated that this wasn't a terribly effective methodology, 
but--I just wanted to get--but that's where these folks went. 
And I want to know how we got to those individuals.
    Mr. Day. The contractors were doing the sampling protocols 
we specified for them to do. If we specified wet swab or wet 
wipe, they would have done that.
    Ms. DeLauro. Then the determination of how we proceeded was 
not their decision. But whose decision then, dry swab, wet 
swab, HEPA?
    Mr. Day. That was a decision being made by the postal 
management working with the advice of public health agencies. 
And when it was advised to go wet wipes and HEPA vacs, that's 
what we moved to.
    Captain Martinez. As far as clarification, CDC really 
didn't have any buy-in on--other than a general opinion on 
contractors. We have no bias. We have no endorsements other 
than being perhaps trained in industrial hygiene. We did 
recommend the analytical labs because it is part of the CDC, 
with other agencies' laboratory response network, who have been 
appropriately trained and have the reagents to not only look 
for presumptive positives but also confirm those samples, just 
for clarification.
    Ms. DeLauro. Captain Martinez, do your laboratories have 
the ability to validate the tests that we're talking about 
here? Can you validate?
    Captain Martinez. Validation from our perspective is 
meeting or exceeding some type of measurement or sampling 
performance criteria, and it's something that NIOSH actually 
does, my particular center, on a regular basis for chemical 
agents. But these laboratories, we're working toward that, as 
suggested in my briefing. We have a contract with Dugway 
Proving Ground, who's actually looking to provide information 
on limited protection, on repeatability of these collection 
efficiencies and recovery efficiencies for analysis for both 
air and surface samples.
    As far as the laboratory response network, it's important 
to note that early on in our investigation the LRN was 
developed around a clinical model, meaning that these labs were 
designed because they are so intricately linked with the public 
health system to analyze clinical samples. It took time 
throughout this outbreak investigation to educate them about 
the new requirements.
    Ms. DeLauro. I don't mean to interrupt you, Captain 
Martinez, but do we have the capability at the CDC to validate 
these tests? Should this happen again, do we now, then, have to 
go to another process of figuring out how we deal with 
validation?
    I sit on Labor-HHS, and CDC comes before us all the time. 
Is this an appropriate question to ask them? Do we have the 
ability to take what happened at the Wallingford facility with 
the tests, go to the laboratory and get this validated, so 
there is in fact no stumbling block in allowing people to 
understand what their environment is all about?
    Captain Martinez. We have been doing that both internally 
at CDC and our laboratories and also through the contracts we 
have.
    Ms. DeLauro. And you did not have that capability in 2001 
when this occurred.
    Captain Martinez. Perhaps we had the capability, but at 
that time our laboratories and all others involved were 
inundated with responses to the anthrax investigations.
    Ms. DeLauro. So there's a difference between having the 
capability and being unable to implement the capability for a 
variety of reasons; but you had the capability to validate?
    Captain Martinez. Yes, ma'am.
    Ms. DeLauro. So we could have validated if we had pursued 
this.
    Mr. Day, what advice did you get from Public Health 
officials that led to the withholding of the information?
    Mr. Day. My understanding--and I must say I was not 
directly part of the conversation, there was a discussion about 
once we had the quantitative results--and that was not typical. 
And I was involved extensively throughout this, particularly 
with the situation here in Washington as well as in New 
Jersey--we were not getting quantitative results. We were 
getting qualitative results: positives, negatives. When we got 
positives, it was simply that; not a quantity associated with 
it. So this was somewhat unique.
    And in Connecticut, the local management team there from 
the Postal Service, working with the Department of Public 
Health officials in Connecticut, had a discussion about what is 
the best way to share the information. Clearly the Postal 
Service was responsible for taking the lead to announce it to 
the employees, but as I understand it, a determination--rather 
than releasing quantitative results, it was put in a 
qualitative form, beyond just positive. And to clarify 
something, on December 2, the term ``trace amount'' was used. 
However, when the subsequent tests came in, there was a clear 
change that was made even in the press releases that called it 
a ``concentration of spores.'' So the terminology changed, but 
the actual release of the quantified result was not given out. 
I was not privy to the direct conversation. So why that nuance 
crept in I am not sure.
    Again I think the earlier question, in retrospect in the 
future we can share that quantitative data, and we should share 
that quantitative data.
    Ms. DeLauro. I think that is important to get that on the 
record. And in the prior panel we heard that in fact the word 
``trace amounts'' was misleading. And I don't, you know, want 
to take a look at whether the term ``concentrated amounts'' is 
equally as misleading as to, you know, a full disclosure and 
right to know, since a variety of other agencies did know and 
there is a lot of, quite frankly, passing the buck and 
covering--I don't say covering up--but, you know, just kind of 
dancing around this effort.
    Mr. Day. I think as we move forward and understand the 
obligation to release the quantitative data, there also needs 
to be a collective agreement of how do you translate a 
quantitative number, 3.2 million CFUs per gram, whatever the 
measure might be, into layman's terms. If ``concentration of 
spores'' is not correct, it may very well not have been. We 
need to put it in terminology that people can understand and 
react to appropriately.
    Ms. DeLauro. But people will react--I have always found 
this, and have spent a lot of time with people on a regular 
basis, that if you're up front with them and you're straight 
with them, and say we have a problem here, friends, we got a 
problem, more than we anticipated, I think we can deal with 
this, but you are at risk. People are adults. You have to know 
what the nature of the problem is so you can deal with it. Some 
of these people did not take Cipro because they felt it was 
trace amounts. So in simple terms, you don't need to give them 
the scientific terms, but give them the knowledge that they 
need in order to make sure they can care for themselves and 
their families and make a decision about how they want to 
proceed with their public health.
    I would guarantee that most of these people would have 
stayed on the job, too, if you told them you could take care of 
it. They stayed there. No one else had to be there every single 
day, but they stayed there. Let me just--my time is up--let me 
just--I too, have a difficulty with understanding but I think 
we got to the conclusion on this with regard to OSHA.
    The difference between December and the following September 
is unconscionable in terms of information being released to 
people, and why the Postal Service was not cited is a mystery 
to me. And I think we have to take a look at what we are doing 
at OSHA, if we can continue with these procedures in another 
sense.
    Let me just ask a question that has to do with the future. 
I think failure to inform the workers of the extent of this 
contamination, I think really calls into question the faith 
that workers have in the management of the facility. What kinds 
of steps is the Postal Service taking to rebuild that trust 
between workers and management, and, at the same time, what are 
you doing in terms of enacting these recommendations that the 
GAO has outlined?
    Mr. Day. Well, unfortunately, we actually had a couple of 
opportunities to not just create the plan but to exercise it. 
In the case of Wallingford, we had the high bay cleanup, the 
upper part of the building needed to be cleaned. The issue was 
raised both by the district manager in Connecticut and the area 
vice president of the northeast area personally called me about 
it, and we are very concerned and we established protocols for 
that kind of cleanup and we did the testing. When we had the 
positives, that was clearly communicated, as was the cleanup 
procedure, and then ultimately retesting to make sure that it 
was adequate.
    I was personally involved with the situation here in 
Washington on January 14 of this year where we had a false 
positive result over at the Federal Reserve. We made an 
immediate decision to do a precautionary round of testing and 
closed the government mail facility here in Washington. Our 
district manager personally briefed the employees. We did the 
extensive testing. We let them know the results the next day. 
So we have not only created the plan but, unfortunately, we had 
to exercise the plan.
    Ms. DeLauro. I want to say this to you, just this final 
comment. You know during this period of time, I think it's fair 
to say I was on the phone almost on a daily basis, because 
there were so many conference calls going on, two or three 
conference calls a day. And I asked, I asked the Postal 
Service, I asked people to keep me informed of what was going 
on, and I suggested shutting the plant down. I suggested 
shutting the plant down. What is irritating to me is that I 
spent hours and hours on the telephone with government 
agencies, and I presumably have a responsibility as a Member of 
this institution, as a public servant, as someone gets elected 
to carry out responsibilities of full faith and credibility--at 
no time, no time, was I informed of any of this.
    So that this was a shell game of the agencies who knew what 
was going on, talking around it, and every single conversation 
that I had didn't--I wasn't in the loop on this effort, and 
neither were the workers. Had I known, you would have had a 
demand to shut this plant down while we were doing what we 
needed to do, and to be prudent and use the language of the 
report, aggressive on how to handle this issue. So I feel 
personally violated in that sense that I was misinformed of 
what was going on in that facility, and I want to be very clear 
about that and put that on the record.
    Mr. Shays [presiding]. Thank you. It is on the record.
    I also want to say that I think the employees were 
extraordinarily tolerant. And the sad part of the story is that 
there isn't going to be the same trust next time, because you 
did have a lot of different people know about the 
contamination, and instead of voluntarily giving it to the 
employees when they requested the information, it was denied 
them. So it would--you would think that when you know this, you 
would say it.
    And then you have an honest dialog, Dr. Hadler, that we 
don't quite know what this really means yet. That's fair. But 
Mr. Burrus's members are entitled to this information. But I 
think what is shocking is that when the request was made for 
information, it wasn't forthcoming. And I'm still trying to 
sort this out.
    And I am going to give this back to Mr. Janklow to ask some 
questions, and then I'll have some.
    Mr. Janklow. Thank you Mr. Chairman.
    Dr. Hadler, when I read your testimony, sir, I get the 
feeling that there was no one person in charge of this 
investigation, if I can call it that. It was a committee put 
together from, if I recall, CDC, DPH--which I assume is the 
Department of Public Health--local health departments, liaison 
with the FBI in New York, liaison from the Postal Service in 
Connecticut, yourself. Are those the folks--was it being kind 
of run by a committee?
    Dr. Hadler. It was kind of run by a committee where 
everybody's ideas were heard and discussed. The reality is 
there were probably sort of two points of leadership. And the 
two points of leadership were the Department of Public Health, 
and that was me and the committees, although reporting--I mean 
many times a day--to the Commissioner of Public Health and, as 
needed, the Governor knew about things and got involved, and 
then the CDC staff, one of whom from the CDC command center in 
Atlanta was listening in on all of our daily meetings, as well 
as the close-to-CDC staff that were present helping us.
    Mr. Janklow. But that's a committee.
    Dr. Hadler. It is a committee, but we all shared ideas and 
came to consensus on what to do, and passed information up and 
down to our respective bosses who could certainly overrule us 
on anything that we were doing.
    Mr. Janklow. In hindsight, if this were to happen again, 
God willing it doesn't, but if it were to happen again, would 
you have somebody that oversaw the whole thing, a person who 
would oversee it all, a top manager?
    Dr. Hadler. Potentially. It is clear you need somebody to 
make a final decision if you need a tie-breaker. And I think in 
general with the people involved, we didn't need that. We were 
able to come to consensus and able to discuss information and 
we were able to successfully communicate up and down our chain.
    Mr. Janklow. For example, did you all agree, the whole 
committee agree, that you would call it a trace amount? Was 
that a committee decision?
    Dr. Hadler. That particular one wasn't a committee 
decision. I think that particular term came out when we were 
explaining the first positive findings, discussing them with 
the postal leadership, and our interpretation of them, and we 
got questions about, well, how much was really found, and then 
we described sort of trace.
    Mr. Janklow. I assume it wasn't just the workers. The 
media, the public, the elected officials were all asking the 
committee how much is there? How much is it? Am I correct in my 
assumption?
    Dr. Hadler. In terms of how much was it came out--it came 
out in our discussions, but then it came out again as we were 
meeting with postal officials outside the regular committee 
meeting to further discuss the findings and what they meant so 
they could be clear on what they meant. I think the term 
``trace,'' unfortunately, crept in early on, in part because we 
were asked, well, sort of how much; and we said ``trace,'' in 
the sense that very low percentage positive and only a few 
colonies----
    Mr. Janklow. Couple more questions, Doctor. As I read your 
testimony, on November 21--let me back up. On November 11, 
there was a sweep done--let me call it that--of the facility, 
an analysis done of the facility, testing done on the facility.
    Dr. Hadler. That was part of the U.S. Postal Service----
    Mr. Janklow. Only one mail sorting machine was examined. On 
November 21, there was another sweep done--I use the term 
``sweep''--analysis done, testing done in the facility. There 
were only six samples taken from mail handling machines. On 
November 25, there was another examination done of the 
facility. And there were only eight samples taken from sorting 
machines.
    So what I am wondering is why weren't all the sorting--why 
didn't the committee think that it was important to look at 
mail sorting machines? Is there a way for mail to get through 
those facilities without going through a sorting machine?
    Dr. Hadler. It is an excellent question. I think the 
initial two samplings were planned by the Postal Service, and 
they were broad sweeps, because a broad sweep potentially would 
have picked up if a Daschle or Leahy letter had gone through. 
At that stage, we didn't know if we were dealing with a new 
mailing or we were dealing with the residual of an old mailing.
    Then, as those results came back negative, the next round 
of sampling that came back on the 25th, which was wet wipes and 
the first one planned by our team directly, it was decided to 
sample all kinds of machines in there, including taking a few 
samples from the machine that sorted mail for her postal route. 
And a lot more discussion said--came to the conclusion that if 
this mail came in from outside, it really should have--who 
knows what machine it could have come in on, as Doctor Martinez 
pointed out.
    We also decided that in reviewing what mail was in her 
trash, 80 percent of her mail was bulk mail. One of the 
machines, which hadn't been sampled at all before, handled 
predominantly bulk mail. So it was decided then to just go 
through all the mail sorting machines in detail.
    Mr. Janklow. Do you know how many mail sorting machines 
there were, sir?
    Dr. Hadler. Thirteen high-speed mail sorting machines. And 
the first time we actually----
    Mr. Janklow. From your testimony sir, it doesn't appear 
that all 13 were tested.
    Dr. Hadler. They were first tested on the 28th. Four of 
them were found to have positives. And then we went back to 
those four--actually three of them were found to have positives 
and one of them had a false positive initially that turned out 
to be negative. But we went back--as far as we found, that we 
took the machines off line and then thoroughly resampled them 
to try to get a better idea as to how contaminated they were, 
and that is where we came up to close to 70 percent of the 
samples----
    Mr. Janklow. Were heavily contaminated.
    Dr. Hadler. Right.
    Mr. Janklow. I am not playing with words, sir, but this is 
all important. You can tell by the animosities and anguish that 
people have. You call it a heavily contaminated machine. Is 
that a fair phrase that could have been given to the public?
    Dr. Hadler. Yes.
    Mr. Janklow. The other thing I would like to ask you about 
is--on page 7 of your testimony, in your conclusions: The 
previous conclusions about risk to workers are unchanged by 
these findings----
    Mr. Shays. Would the gentleman suspend a second? I am 
wrestling with a number of things, but your question surprises 
me. From your testimony it was a heavily contaminated machine. 
So walk me through your mind-set, your mind, as to what that 
said to you and what it said should have happened.
    Dr. Hadler. OK.
    Mr. Shays. The machine is heavily contaminated.
    Dr. Hadler. There's two aspects of the interpretation. No. 
1 is, what does this mean with respect to how one person in 
Connecticut got anthrax? And from our perspective it meant that 
this particular machine, one that sorted mostly bulk mail that 
was dumped, it looks like this could be the source.
    Mr. Shays. That is one thing that tells you.
    Dr. Hadler. From the public health perspective, you have to 
step back and look at the whole context. This machine was 
presumably contaminated since sometime in mid-October. We 
didn't know there was anthrax in Connecticut and had no reason 
to investigate anything until late November. More than a month 
had passed, not a single person had gotten anthrax. If this 
heavily contaminated machine hadn't produced any anthrax in a 
month, based on everything we knew about anthrax and incubation 
periods, it was highly unlikely to produce any anthrax.
    Mr. Shays. Walk me through that, though, because the 
anthrax spores--they don't lose their potency so quickly, so 
what makes you comfortable in saying that? They could be in 100 
different places just at the right time for someone to stir up 
the dust and inhale it.
    Dr. Hadler. And you are absolutely right. They don't lose 
their potency particularly. And if aerosolized, they could pose 
a threat.
    Mr. Shays. So, having said that----
    Dr. Hadler. So recognizing that they hadn't been 
successfully aerosolized to the extent of exposing anybody in 
the preceding month or so, and ordinarily we would expect 
people to get sick within a week of being exposed, as did the 
people in Brentwood and Trenton, that was one piece of 
information. The other was we hadn't found spores in our 
widespread sweeps, meaning which is unlike Brentwood and 
Trenton where they found spores widely throughout the facility, 
even with dry--actually, I think it was mostly wet swabs that 
were used. But they found them very, very readily and also 
found them readily with dry swabs in Brentwood. It didn't look 
like there was evidence that there had been widespread 
aerosolization, that these spores had gotten on the machine, 
that they weren't ones that were sort of heavy spores, if you 
want to call it that.
    Mr. Shays. So you're saying that if they were on the 
machine as heavy, you just assumed they stay heavy.
    Dr. Hadler. If this had been the first day--if we had no 
context to put this in and there had been no other anthrax 
cases, we would look at it very differently than knowing when 
contaminated mail had gone through and knowing that we had 
actually been living with this situation for more than a month 
and yet no one got anthrax.
    I don't know how much of this has actually been published. 
We knew that New Jersey had found at least 10 different--at 
least 5 different contaminated postal facilities, using only 20 
cultures scattered around the postal facilities. In the greater 
Washington, DC, area, at least 20 post offices had tested 
positive for anthrax.
    Mr. Shays. What I am hearing you say is that this was a 
heavily contaminated machine. The machine was heavily 
contaminated, and you basically made a decision or reasoned 
that so much time had passed that if the damage wasn't done 
already, you didn't need to fear any damage in the future.
    I am having a hard time sorting that one out, because we 
know that the spores can be dormant and they can be in certain 
places and they could be stirred up and so--anyway.
    I thank the gentleman for yielding.
    Dr. Hadler. Just the one thing about the stirring up or 
aerosolization of spores, again, if this had been happening 
over the last month, we should have seen people with anthrax at 
any time. We had also done nasal swabs on all the workers who 
had been started on antibiotic prophylaxis. Nasal swabs, if you 
had been heavily exposed to anthrax in the last few days, then 
for it--the inhalational form--then potentially some of those 
should have been positive, and none of those were positive.
    So all of this went into our thinking. The other thing was 
that the postal facilities for more than a month had stopped 
using compressed air to blow out machines, which is really 
where I would have been very worried.
    Mr. Shays. I was wondering about the people that might have 
gotten bulk mail in their homes. But notwithstanding however 
you sorted this out, there is a total agreement in this room, I 
believe, that the public had a right to know exactly what you 
found, and then you can give them your arguments as to why you 
don't think they need to be concerned. Is there any doubt in 
your mind that's got to be the practice?
    Dr. Hadler. Absolutely. That has to be the practice. When--
I mean this information was explained--our Public Health 
information was explained. It was ultimately up to the Postal 
Service, per their own agreement.
    Mr. Shays. No. Let me just say that's where we part 
company. It seems to me you are the Public Health official. And 
it would seem to me that your job is to make sure they do it, 
and if they don't, you do it. And I would love to, when I have 
my questions, sort that one out with you. I'm sorry that I took 
so long in intervening here.
    Dr. Hadler. I would agree with your last statement. I think 
in retrospect if we have to do this again, we will be sure that 
we are more directly involved in the communication to the 
workers.
    Mr. Shays. Everyone needs to look Mr. Burrus in the face 
and tell him that directly. We all need to look at him in the 
face.
    Mr. Janklow. Dr. Hadler, the fact of the matter is there 
are times when individuals don't want public health issues 
disclosed, but you have a responsibility to do it anyhow; isn't 
that correct? The classic example would be communicable 
diseases. You are notified that people have been exposed or 
potentially exposed and you try to run them down.
    If I could be very brief with a couple of questions. 
Anthrax spores can live decades, isn't that correct? Matter of 
fact, they live in the ground, especially out in--they live in 
the soils in this country; am I correct?
    Dr. Hadler. That's right.
    Mr. Janklow. And it isn't just a matter of--where you said 
in your testimony the previous conclusions about risk to 
workers are unchanged, the real risk was when the spores were 
introduced and possibly airborne in the vicinity immediately 
around the machine and not now. Cutaneous contraction of 
anthrax comes in contact with the spore and not necessarily 
airborne; correct?
    Dr. Hadler. That's correct.
    Mr. Janklow. To the extent that a postal worker has any 
kind of cut or opening in the skin, to the extent they touch 
that envelope that has anthrax on it, there is a potential they 
could get cutaneous exposures.
    Dr. Hadler. That's right. And my statement referred just to 
inhalation anthrax.
    Mr. Janklow. The 94-year-old lady that died, do we know 
that it is inhalation anthrax that she died from?
    Dr. Hadler. Yes, we do. That is sort of the way she 
presented clinically. An autopsy was done looking for other 
possible routes of exposure to see if she might have had a skin 
lesion before anything else, or any gastrointestinal ingestion 
of spores, and there was no evidence of that happening at all.
    Mr. Janklow. Recognizing that several of the witnesses here 
today have talked about the fact that if it's lying on a 
surface, as long as you don't maybe spray it with an air gun or 
disturb it that way, that it may--it kind of adheres to the 
surface. Has anybody ever speculated how this 94-year-old lady 
had a letter and ingested airborne anthrax? What did she do, 
blow it open?
    Dr. Hadler. As I mentioned in my oral testimony, we did 
find a letter in the house of someone else, not that far from 
her but on a slightly different postal route, that had come 
through Trenton, NJ within 15 seconds after the Daschle or 
Leahy letter went through. We found that letter and went to the 
house. We repeatedly isolated spores from the outside of that 
letter, and not from the inside of the letter, and not from any 
of the mail that it was stored with. What we speculate is that 
she got some bulk mail that was similarly contaminated. She 
tore all her bulk mail in half like this before throwing it in 
her trash. And we speculate that in tearing it in half--your 
leverage is much better around your mouth--that some spores 
were released, she inhaled them. And in her case she was, as 
you heard before, she was one of the vulnerable people for whom 
many fewer spores were sufficient to cause anthrax.
    Mr. Janklow. One last question.
    Captain Martinez, in light of the experience that we have 
all gathered from the past from the incidents involving the 
Postal Service and the Senate buildings and South Carolina, I 
believe it was, where they had the incident down there, has CDC 
changed its protocols in terms of what local public health, 
local officials, local businesses, local anybody, should be 
doing when they come across positive--the way you test--let us 
start there--one, the way you test; and, two, the methodology 
with which you inform the public?
    Captain Martinez. I can address the environmental and 
analytical, and I am going to defer the public health 
coordination and liaison to Dr. Perkins. But yes, since 
everything we have learned not only from research but also our 
outbreak responses, we have since posted guidance on the CDC 
Web site that actually lists out strategies on how we think one 
should approach--first responders and public health officials, 
for investigating anthrax; how you would sample it, how you 
would interpret it. These are the methods we have seen that we 
think are appropriate, and those are the methods that we are 
working on validating in house as we speak.
    Also we are working with our CDC through the laboratory 
response network to send out protocols so that we have a 
certain consistency with methods, analytical methods, amongst 
our public health labs that are out there, these State and city 
public health laboratories.
    Dr. Perkins. The current CDC recommendations for handling 
of facilities if an environmental positive is found continue to 
suggest, as they have since November 9, that alone is not an 
indication to close a facility, and that there needs to be 
additional consideration of the entire context of the 
situation, such as Dr. Hadler has pointed out.
    I think two points are important to recognize. First, 
surface sampling provides a very incomplete picture of human 
health risk, and that there are two critical components that in 
no way measures. One is the potential for that particle to get 
up off the ground and get inhaled to the lung, so the aerosol 
capability of that particle; and two, a very critical 
characteristic is the particle size. So if that 3 million 
colony forming units can't get up off the ground and is not in 
the 0.5 to 5 micron particle size, it does not represent a 
human health risk for inhalational anthrax.
    Mr. Janklow. How large were these in the Postal Service 
buildings?
    Dr. Perkins. We don't have technology or methods to 
measure, and that is a major limitation in building that bridge 
from surface sample results to human health risk.
    Mr. Janklow. I don't quite understand you. You say it has 
to be smaller than 5 microns, yet we don't have a way to 
measure it.
    Dr. Perkins. We do have a way in the laboratory. And 
everyone has been referring to animal experiments indicating a 
certain range as infectious. Those are done in very careful 
laboratory settings where the particles that go into the animal 
are actually measured as they go into the animal.
    The other thing is that we know of environments, including 
your State, where there is extensive environmental 
contamination; and there's people working in those environments 
that are not at risk for cutaneous or inhalational disease and, 
in fact, the bacillus anthracis that's present in those 
environments has to be amplified in an animal infection to 
present a risk.
    So we know of other environments in the United States where 
people are working, you know, for the last 25 years in 
contaminated environments, that do not represent public health 
risk. So, you know, we are working from a basis of experience 
in making some of the kind of recommendations that Dr. Hadler 
referred to.
    Mr. Janklow. Thank you very much. But those are nature-
grade and not weapons-grade anthrax.
    Dr. Perkins. That's clear. But again, weapons-grade anthrax 
pertains primarily to the aerosol plume at the point of 
release. And these particles quickly become very sticky with 
electrostatic charges and attach to things and form particles 
that then do not present health risks.
    Mr. Janklow. Thank you, Mr. Chairman.
    Mr. Shays. Let me go through some questions. I can ask a 
short question, and the answer may be longer, but I am not 
looking for long answers.
    Mr. Burrus, are workers still concerned about their health 
and safety at the work sites?
    Mr. Burrus. Yes. There is still a concern. And the concern 
is not--the residue of the anthrax attack is certainly 
lingering in the minds of employees, but I think the overall 
concern of their employees and their union is that, as 
reflected in much of the testimony today, we didn't suffer any 
illness and suffered no deaths beyond Brentwood. That is to put 
postal workers in the class of being guinea pigs. We don't know 
we have a serious problem until someone dies. The postal 
officials and the employees at Brentwood were told the same 
thing as--you know, the Leahy and the Daschle letters occurred 
before Brentwood. Capitol Hill was closed. There were testing 
dogs. Brentwood remained open.
    All the excuses that have been presented here today were 
given to the employees at Brentwood and Hamilton Township: So 
far, it's not weapons grade. It's dormant if it exists. You're 
safe.
    We had the two deaths. The deaths generated the closing of 
Brentwood and partial closing of Hamilton Township. 
Subsequently we had the problem in Wallingford. We went over 
the entire process all over again. Nobody's dead yet, let's 
wait and see. The same information was given to the employees 
in Wallingford that was given to the employees in Brentwood: 
that it's safe, you can work, we'll contain it.
    And it has not been contained. And I suspect that if it 
occurs again, I don't think the lesson has been learned. I 
don't think the message is clear that the health of the workers 
is paramount. And this adoption of the word ``trace amount'' to 
cover a multitude of sins, to give misleading information to 
the employees I think is wrong. And I think the employees, 
legitimately, continually have a concern for their safety and 
health and the protection they receive by those institutions 
who have the responsibility of providing them protection. Those 
are the legitimate concerns of the employees I represent.
    Mr. Shays. It is very understandable that your employees 
feel that way based on what we have known before and based on 
this hearing.
    Mr. Day, are you completely confident that all USPS sorting 
facilities are free of anthrax?
    Mr. Day. Well, I can state categorically I know they're 
not. We have the Trenton facility that is not yet cleaned.
    Mr. Shays. On what basis can you make that statement?
    Mr. Day. We know that Trenton is contaminated and we have 
not yet decontaminated it.
    Mr. Shays. How do you know the other facilities are not 
contaminated?
    Mr. Day. To the extent that other facilities may be 
contaminated, we did the extensive testing up front. There is 
the recommendation from the GAO that the Postal Service work 
with these myriad of agencies to reassess risk and determine 
whether additional testing would be required. We are very open 
to the idea and we fully embrace it. We'll determine what the 
risks are, where we potentially would need to go back and 
retest.
    Mr. Shays. Let me ask you, how many of the USPS facilities 
were actually sampled for anthrax?
    Mr. Day. 211.
    Mr. Shays. Out of how many?
    Mr. Day. We have about 380 processing centers of various 
types.
    Mr. Shays. 211 were all processing agencies?
    Mr. Day. No. Some of those were actually targeted locations 
in the areas directly impacted in Washington, New Jersey, and 
New York, as well as Florida.
    Mr. Shays. How many of the 211 were processed?
    Mr. Day. Just over 100.
    Mr. Shays. You did 100 out of the how many processing?
    Mr. Day. There's roughly 380 that do some level of 
processing activity.
    Mr. Shays. So the balance of 111 were postal offices?
    Mr. Day. Yes.
    Mr. Shays. How many postal offices do you have?
    Mr. Day. 38,000.
    Mr. Shays. How many of these facilities that were tested 
used exclusively the dry swab method?
    Mr. Day. First round of testing was all dry swab.
    Mr. Shays. So out of all the facilities you did, the 211, 
did you only go first round, or did you do a second round not 
using the dry swab?
    Mr. Day. On our first round of testing we found 19 with the 
dry swab that had some level of contamination.
    Mr. Shays. That is not really what I am asking. I am asking 
how many of these facilities were done with the wet swab?
    Mr. Day. Of the 211, they were all dry swabbed.
    Mr. Shays. How many were done with wet swab?
    Mr. Day. The five additional ones that had more extensive 
contamination.
    Mr. Shays. If you didn't get contamination with a dry swab, 
then you didn't do the wet swab?
    Mr. Day. Correct.
    Mr. Shays. We had testimony that basically says the dry 
swab is kind of useless.
    Mr. Day. There's been discussions about going back and was 
there a need to go back and do additional testing, and the 
advice was no. Again, given the GAO recommendation, we will go 
back and look at that again.
    Mr. Shays. Ms. DeLauro is rightfully asking--I might get a 
Baptist Church here, but her question is very important--by 
whom? Who advised you?
    Mr. Day. There was a discussion with our safety and health 
staff, with the same collection of agencies.
    Mr. Shays. Postal people advising the postal people?
    Mr. Day. No, we sought outside help from.
    Mr. Shays. Who told you that you do not need to do wet 
swab?
    Mr. Day. Let me not speak out of school because I was not 
privy to the conversation, but I can give you specifically who 
was involved in the conversation. We had a safety and health 
manager who was dealing with other agencies.
    Mr. Shays. I have been doing a lot of listening, and I 
haven't done a lot of questions because I have been trying to 
sort this out. One thing that we in this committee try to make 
a practice of is not after the fact say, you know, it's your 
fault, because hindsight sometimes is very important. And I 
also try to put myself into the position of the time in which 
there was lots of pressures and lack of knowledge and so on.
    But Mr. Burrus has been about as gentlemanly as you can be, 
and he's having to listen to this, having to represent his 
workers. And we have--I mean the testimony was pretty clear; 
the dry swab is pretty useless. So you have given me the 
impression that you really shouldn't have given me, that we 
have tested 211 facilities, because actually we have done it 
with the dry swab and that is kind of useless. And I don't mean 
to put you on the spot, but you kind of put yourself there, 
because really what you should have said up front, disclosure 
in the spirit that we would want in the future is, you know, we 
need to say that we have done 211, but frankly those were done 
with dry swab and we only did about 5 with the wet swab; and, 
you know, we may need to reexamine how we go forward.
    Now your response may be, you know, we haven't seen any 
deaths or injuries, which is kind of like Mr.--you are kind of 
adding to Mr. Burrus's comments of the guinea pig. No one died, 
so we must be all right even though we really didn't test these 
facilities.
    Do you disagree with my conclusion that, based on the 
testimony we have had, that doing the dry swab is going to meet 
the need?
    Mr. Day. From what I heard today and the assessment of the 
dry swab, I can't disagree with you. We do need to go back at 
it.
    Mr. Shays. I don't know what ``back at it'' means, but----
    Mr. Day. Congressman, basically we don't have 
microbiologists on the staff. We have truly sought out the best 
advice we can. If the advice of these agencies is that we need 
to go back and do wet swab, wet wipe testing, aggressive air 
sampling with HEPA to assure that the original 211 are truly 
clean as we first thought they were, then that's something we 
will do.
    Mr. Shays. In the five facilities that you utilized the wet 
swab method, how many of those five facilities were found to 
have anthrax?
    Mr. Day. The additional testing was done in facilities 
where there was some preliminary positive.
    Mr. Shays. When you think about it--this is almost 
humorous--in the five facilities that you did it, you actually 
found that you had a problem and you had anthrax in those five 
facilities, and the dry swabs found it, but the wet swabs----
    Mr. Day. We found it on multiple sampling types. So we 
found it on dry swabs, wet swabs, HEPA vacs. There was multiple 
sampling protocol. We also had 19 facilities with only dry 
swabs that were also found to be positive.
    Mr. Shays. What happened? Did you go with the wet swab?
    Mr. Day. We did a pure dry swab and found out where it was 
and did a decontamination effort and then subsequent testing.
    Mr. Shays. And you did the decontamination over the whole 
building?
    Mr. Day. We found very isolated results in certain 
buildings where it was very specific, and we were----
    Mr. Shays. What you just told me, though, is that there are 
19 facilities' worth of dry swab found anthrax, but the wet 
swab would give you a better reading and you didn't do that.
    Mr. Day. That's correct, at that time.
    Mr. Shays. That's a little cause for concern here. What 
factors did you consider in deciding that retesting facilities 
would be not necessary? Cost, practicality, legal issues, 
political issues?
    Mr. Day. I would definitely rule out cost, political, and 
legal. The only thing we ever used in this process is advice 
from experts on what is necessary for the safety of employees. 
There is a risk assessment that is done, and I think you heard 
that from some of the witnesses, and we followed the advice 
that they have given to us.
    Mr. Shays. Who's they?
    Mr. Day. Again, it has been State public health officials, 
where appropriate, and CDC.
    Mr. Shays. In my office, if everyone is in charge, no one 
is in charge; so I always assign someone to be in charge. And 
it is probably one of the best lessons I learned early on, 
because early on we discovered something we needed to do and it 
didn't get done, and I realized that everyone else thought 
someone else was doing it.
    We have this case, CDC, the State officials, USPS, and it's 
like, you know, I want to know who ultimately is held 
accountable for this. And the answers that you give me when I 
don't--I'm not comfortable and I don't think you are 
comfortable with the decision is we were advised--they, we, 
sought out the best help we could.
    So I just would tell you, I think this hearing is almost 
ripe for our committee to come up with some real quick 
conclusions as to, you know, who should be in charge of 
deciding protocol and practice and so on, who should decide to 
make sure that information is communicated. I really think that 
the postal department basically made a decision that the 
employees and the public couldn't handle the data, and you 
weren't quite sure what the data was, so you decided not only 
to not voluntarily provide it, but you resisted providing it 
when it was requested. I am uncomfortable that the State was 
kind of deferring to Postal to decide what should be disclosed 
and not disclosed, because I really believe this was a public 
health issue.
    And, Captain Martinez, I want your reaction to what I asked 
and response to questions.
    Captain Martinez. Could you repeat the question, please? My 
mind went blank. I apologize.
    Mr. Shays. I want to know what you have thought about the 
responses of Mr. Day, Dr. Hadler, the responses that were 
earlier in our first panel. I want you to help me sort out what 
CDC's role is. You know, there were people that knew that there 
was contamination at the site by CDC, and they didn't feel 
obligated to speak out, which is kind of amazing to me. So, you 
know, tell me how you sort all this out.
    Captain Martinez. CDC, when we respond to an investigation, 
we respond--as suggested earlier in my presentation--at the 
invitation of the State and local governments. We come to 
assist. We don't try to direct. It is not within our mission. 
We try to provide expertise, whether that be sampling, 
analytical, or epidemiological; and we try to work with them 
with the best advice that could guide their response with as 
much information as they can.
    From the very beginning, I was deployed with Dr. Perkins to 
Florida, and we started delving into that realm of 
environmental sampling, which up to that point had not been 
done up for a biological agent or bioterrorist agent. And it 
was at that point in time that I contacted resources that I 
have through my experiences through mold sampling and my 
biological expertise, that we knew at that point in time that 
wet swabs were the way to go but perhaps were not the best 
way--wet swabs were better than dry swabs.
    Mr. Shays. You have pretty sound reason to make that 
conclusion.
    Captain Martinez. It was based on a scientific paper and 
research.
    Mr. Shays. If you see dry swabs used, you what, you are 
like a machine, you don't respond to it?
    Captain Martinez. We tried to reeducate where we could. And 
in Florida we were already using HEAP filter vacuums and wet 
wipes at that point in time. That message had been linked out 
to our other response teams on Capitol Hill, Brentwood, 
Hamilton, and, as you can see, a certain amount of consistency, 
even on Capitol Hill, we hit the ground with wet wipes and 
vacuums; and also the same is true of Brentwood as well.
    Mr. Shays. Is your ultimate authority HHS?
    Captain Martinez. Yes.
    Mr. Shays. Were you not aware of the challenge up in 
Connecticut where there was contamination but not yet made 
public? Were you aware of that?
    Captain Martinez. To be honest, sir, no, I was not. I was 
privy to some of the conversations in the conference calls 
because I was the liaison, if you will, with our contract 
laboratory. So I was aware of the data coming through.
    Mr. Shays. Through the conference calls you were aware----
    Captain Martinez. Aware that the information existed, yes.
    Mr. Shays. That there was contamination?
    Captain Martinez. Yes.
    Mr. Shays. So was there in these conference calls a dialog 
that the public had a right to know and the employees 
certainly?
    Captain Martinez. I don't recall. Again I was not privy to 
all the conference calls. Maybe Dr. Perkins has a better 
perspective.
    Dr. Perkins. Speaking for my many colleagues at CDC, I feel 
confident that if there were scientists involved that 
recognized a clear increased risk to human health as a result 
of this particular finding, and informing the employees of that 
finding was a high public health priority, I would hope that 
those involved would have conveyed that.
    I think the uncertainty here, and where things went gray, 
and it looks like where things went wrong with a loss of trust, 
was the importance of this to human health risk. Let me caveat 
that with saying that clearly I think disclosure with caveats 
is the way to go. And I think many people at CDC would agree--
everybody would agree with that at CDC.
    Mr. Shays. Let me ask this last question, and I will 
recognize Ms. DeLauro.
    What legal obligation, and then what moral obligation, 
would someone at CDC have to make sure this is disclosed to the 
public if, in fact, it was determined that employees or the 
public were--could potentially contract anthrax due to a 
contamination? What kind of obligation exists? In other words, 
is it you just advise, or others who have this information 
don't speak out; is it a moral or legal obligation for CDC to 
speak out?
    Dr. Perkins. I cannot comment on the legal obligation but I 
can comment clearly on the moral obligation in that all of us 
in public health seek to do anything we can to protect 
populations, especially like those served by Mr. Burrus. And 
that is, I mean that is why we are at CDC, and I know that Dr. 
Hadler feels the same way. That is why we are in public health. 
So I would answer your question that we feel the absolute 
strongest moral obligation--I don't know what the legal 
obligation.
    Mr. Shays. Doctor Martinez, I would like a list of the 
people who were on those conference calls, and it is not, you 
know, to--I guess what I am not totally--and I thank you, Dr. 
Perkins, for your answer, because that is kind of what I would 
have hoped it would have been. But I am not convinced that we 
have a clear sense of obligation as to who would make sure this 
information is provided and who will be the backup if someone 
who is responsible doesn't do what their obligation is.
    And I would just be interested to know, I would like this 
committee to know, and we can contact those individuals, as to 
what was being dialoged here and why did the system break down 
that employees weren't informed?
    That also leads to the fact that once the employees request 
information, why do you still have trouble getting it? It's 
bizarre.
    Captain Martinez. I think it's important to recognize as 
well, and this was suggested by Dr. Hadler, that there was much 
involved in the decisions that were made in that point and that 
had to do with before the quantitation results were even out 
that particular machinery was isolated with polyethylene and at 
that point in time----
    Mr. Shays. I think this is all important, but there were 
people who worked with this machine. And these are people who 
might have been exposed, and they had--and even though you want 
me to know that, it makes me feel uneasy because it seems like 
the counter, and there's counter to the fact that the employees 
needed to be informed.
    Captain Martinez. I wholeheartedly agree that the employees 
should have been informed of all the information, and I think 
CDC supports that as well, with the exception of that 
quantitative result. And what we said in our briefing is would 
that have made a difference in the recommendations that were 
made to those employees, no. Whether it was qualitative or 
quantitative, we still would have recommended that the 
equipment be isolated, that it be remediated. The prophylaxis 
was recommended to be continued. These public health 
recommendations would not have changed.
    Mr. Shays. If you had been one of those employees, would 
you have been absolutely outraged you were not notified?
    Captain Martinez. I agree, sir.
    Mr. Shays. That says a lot.
    Ms. DeLauro. Just as a follow-on to the phone calls. I 
truly would like to know who was on the phone call when the 
decision was made not to provide the workers the information. 
There is lots that has to do with the health considerations, 
what the scientific discoveries were, but who made that 
decision? Was Postal Service on the phone, was CDC on the 
phone, was OSHA on the phone, was the Connecticut Department of 
Health on the phone? Who was on the phone that made the 
conclusion that said when the requests came for the data, that 
the decision was, we are not going to provide the data? If 
there's an answer now, that's fine, and if there isn't, I would 
like to know who was there to do that.
    Further, if you look at pages 16 and 17 of the GAO report, 
when we did find the heavy contamination that--and it goes back 
and forth here, although we're told no documentation exists 
about the advice the Postal Service received at the time, 
according to the District Postal Manager, the Chief 
Epidemiologist informed them that there was an additional risk 
to employees for the same reasons previously cited. And you all 
have talked about these areas in which you would not have said 
that, and that CDC concurred, CDC concurred with that 
assessment in terms about the risk.
    The other piece I asked Captain Martinez a bit ago, is one 
of the reasons for the lack of disclosure of the information to 
the workers that we could not validate? Now, the fact of the 
matter is that we could have validated, but we had a backlog, 
at least in terms of that. So we waited several months until 
September to get information to people, and we would not 
disclose any information to them, and we said we could not 
validate it when, in fact, we had that facility to validate 
this and to do it, to say this takes precedence.
    We have a problem here. You may not be able to do it in the 
run of the course or do every building, every facility, but you 
had a specific problem in Wallingford. So you cleared the decks 
and you validated, so that, in fact, you may be able to provide 
the relevant information to the people who work there, 
especially after having been asked on several occasions. So 
that we really shut the door amongst the various agencies that 
were engaged here of taking the course of least resistance. 
That's not appropriate, and I think we understand that, and I 
honestly do believe that you understand that now, but we can't 
afford to put people at risk in this way.
    We're charged with a responsibility, each of the agencies 
were charged with the responsibility to do what's in the 
public's interest, and I venture to say that the public's 
interest and the worker's interests were not not served, but 
poorly served, and as I said in my opening remarks, we lucked 
out and you know, Mr. Burrus is right, it's not understandable. 
It's not understandable.
    Thank you, Mr. Chairman.
    Mr. Shays. We're going to close up here. Governor Janklow, 
do you have any comment you'd want to make?
    Mr. Janklow. Sure, if I can Mr. Chairman. I'm going to be 
brief.
    As I listened to the testimony today, and I really 
appreciate you, Mr. Chairman, I really appreciate you calling 
for this hearing and all of the witnesses that you and your 
staff selected to bring forth. It's been a good discussion. I 
think some things are pretty clear. As I said before, I wear 
trifocals, but my hindsight is 20/20. We in America talked a 
lot about being prepared before a lot of these things happened, 
but it was really talk in a lot of respects. We have unusual 
problems in this country because we have thousands of 
governmental jurisdictions. We have 18,000 law enforcement 
jurisdictions. Between city health departments, county health 
departments, State health Departments, the Federal Government, 
only the Lord knows how many there really are.
    This, to me, isn't done like what's happening in China 
recently. They have problems with SARS. They really didn't want 
to tell anybody too much about it because they did not want to 
panic everybody. They thought they could keep working and move 
forward though in trying to deal with it. When I was younger in 
life, when somebody was terminally ill, the doctor told 
everybody but the terminally ill person. They used to explain 
to them that grandma is not going to make it but they never 
told grandma. Yet grandma's the one that needed to know because 
she had decisions to make.
    As we look back, this is a first time event for all of us, 
and as the chairman said, I'm not interested at all in 
assessing blame as much as I am what have we learned from it. 
Cicero once said to be ignorant of the past is to remain a 
child, and I believe it was Santayana who said a Nation that 
does not know history, is fated to repeat it. We know history. 
So we shouldn't be fated to repeat it.
    Mr. Chairman, one, we need to figure out, as one of the 
witnesses said, who's in charge at the national level and at 
the local level. This can't be run by committee, by consensus 
and by majority vote. There has to be someone that makes the 
decisions very rapidly every step of the way. We don't have a 
lot of time. This isn't like making decisions about your future 
as to what course you ought to take next semester. This is a 
decision you make on an hourly basis, an instantaneous basis.
    In addition to that, I think OSHA has learned from this. 
Were it to be done again, they'd probably treat the Postal 
Service like they would any other private business, probably 
been a lot harder on them and should have been. I think CDC has 
learned a lot from this. The reality of the situation is, you, 
Captain Martinez, said it so well, that you work with the local 
and the State governments, and it's always been CDC's role to 
try and not push the envelope but to respond to requests from 
locals, but in the world of terrorism where folks are out there 
deliberately trying to hurt other people, it's different in the 
way that God used to kind of spread diseases and sicknesses 
around. So you may end up having to be proactive and more 
authoritarian, if I can use that word, than historically you've 
been, even at the risk of alienating these quasi-sovereigns 
that are out there in what we call the United States of 
America, and we really have too many cooks in the soup and 
nobody in charge.
    And so this has been terribly enlightening for this 
particular Congressman. Only because all of us together, I 
think, by discussing it, I think the end result is the Postal 
Service, if and when it were to happen again, would be far more 
proactive. Their workers will be involved on the front page 
instantaneously, that arm in arm, as the testimony indicated 
you all like to do it, is the way it will be done in the 
future.
    Centers for Disease Control will be far more up front, and 
clearly is today, and the State health departments will be far 
more proactive. The net result is that I think that our people 
are better protected, but they're not yet protected.
    And so I thank you, Mr. Chairman, for these hearings and to 
the extent that, the one thing I didn't ask but usually ask 
witnesses is, if there something that any member of the 
committee that thinks we as a Congress can do to help 
facilitate and improve in the process, and so I'd just ask that 
any committee member that has any insight----
    Mr. Shays. Any of the people here?
    Mr. Janklow. Any of the witnesses, if they'd send that to 
us, I would certainly appreciate it. But thank you for this 
hearing, Mr. Chairman, and thank all of you for your 
straightforwardness and candor.
    Mr. Shays. I thank the witnesses as well, on both our 
panels, very helpful. Obviously, I thank my colleagues on the 
dais here who asked excellent questions, as I listened to their 
questions and to the responses.
    Is there anything that any of the witnesses want to put on 
the record before we adjourn? Is there anything that you might 
have thought about last night that you knew needed to be part 
of the record, any comments here?
    If that's the case, let me before adjourning, before ending 
this hearing, thank Joseph McGowen who was a detailee to the 
subcommittee from the Department of Labor's Office of Inspector 
General. We appreciate his work in this effort, and, obviously, 
the work of the committee on both the majority and minority 
side.
    I thank all of you for your service to your country and 
community, and we'll learn from these experiences and do a 
better job.
    And with that this hearing is closed.
    [Whereupon, at 5:10 p.m., the subcommittee was adjourned.]


</pre></body></html>
